                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Improvements to EPA
                     Policies and Guidance
                     Could Enhance Protection
                     of Human Study Subjects
                     Report No. 14-P-0154                    March 31, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                    Rick Beusse
                                                        Chris Dunlap
                                                        Kevin Good
                                                        Alicia Mariscal
                                                        Renee McGhee-Lenart
                                                        Julie Narimatsu
                                                        Tempestt Woodard

Abbreviations

CAA             Clean Air Act
CAPS            Concentrated Air Particles
CFR             Code of Federal Regulations
CITI            Collaborative IRB Training Initiative
DHRO            Division Human Research Officer
EPA             U.S. Environmental Protection Agency
GAO             Government Accountability Office
HRPO            Human Research Protocol Office
HSRB            Human Studies Review Board
HSRRO           Human Studies Research Review Official
IRB             Institutional Review Board
NAAQS           National Ambient Air Quality Standards
NHEERL          National Health and Environmental Effects Research Laboratory
OHRE            Office of Human Research Ethics
OIG             Office of Inspector General
ORD             Office of Research and Development
PM              Particulate matter
PM2.5           Fine particulate matter
SOP             Standard operating procedure
µg/m3           Micrograms per cubic meter of air
UNC             University of North Carolina at Chapel Hill

Cover photo:	     A human subjects air pollution test chamber used during the OMEGACON
                  study in the U.S. EPA Human Studies Facility in Chapel Hill, North Carolina.
                  (EPA OIG photo)


Hotline 	                                      Suggestions for Audits or Evaluations
To report fraud, waste or abuse, contact       To make suggestions for audits or evaluations,
us through one of the following methods:       contact us through one of the following methods:

email:    OIG_Hotline@epa.gov                  email:     OIG_WEBCOMMENTS@epa.gov
phone:    1-888-546-8740                       phone:     1-202-566-2391
fax:      1-202-566-2599                       fax:       1-202-566-2599
online:   http://www.epa.gov/oig/hotline.htm   online:    http://www.epa.gov/oig/contact.html#Full_Info

write:	   EPA Inspector General Hotline        write:     EPA Inspector General Hotline
          1200 Pennsylvania Avenue, NW                    1200 Pennsylvania Avenue, NW
          Mailcode 2431T                                  Mailcode 2431T
          Washington, DC 20460                            Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                               14-P-0154
                                                                                                         March 31, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review              Improvements to EPA Policies and Guidance Could
                                    Enhance Protection of Human Study Subjects
In response to a congressional
request, we conducted this           What We Found
review to determine whether
the U.S. Environmental              The EPA followed applicable regulations when        The EPA can enhance its
Protection Agency (EPA)             it exposed 81 human study subjects to               human studies by improving
followed applicable laws,           concentrated airborne particles or diesel           how it obtains approval for
regulations, policies,              exhaust emissions in five EPA studies               studies; how it communicates
                                    conducted during 2010 and 2011. However, we         risk to people who participate
procedures and guidance when
                                                                                        in EPA studies; and how it
it exposed human subjects to        identified improvements that could be made to
                                                                                        addresses adverse events in
diesel exhaust emissions or         the EPA’s policies and guidance to enhance          its guidance.
concentrated airborne particles.    protection of study subjects.
In particular, we reviewed five
studies that the EPA conducted      The EPA obtained approval to conduct the five human research studies, including
during 2010 and 2011 to             approval from a biomedical Institutional Review Board (IRB) and the EPA Human
determine whether the agency        Studies Research Review Official (HSRRO). However, the EPA’s policies and
(1) obtained sufficient approval    guidance do not address when HSRRO approval is needed for significant study
to conduct these studies;           modifications. Developing guidance for when HSRRO must approve significant
(2) obtained adequate informed      modifications would ensure their independent review.
consent from the human study
subjects; and (3) adequately        The EPA obtained informed consent from the 81 human study subjects before
addressed adverse events that       exposing them to pollutants. While the consent forms met the requirements of
occurred during the studies.        40 CFR Part 26, we found that exposure risks were not always consistently
The EPA’s human studies are         represented. Further, the EPA did not include information on long-term cancer
governed by 40 Code of              risks in its diesel exhaust studies’ consent forms. An EPA manager considered
Federal Regulations (CFR)           these long-term risks minimal for short-term study exposures. We believe
Part 26, also known as the          presenting consistent information about risks further ensures that study subjects
Common Rule, which                  can make the most informed choice about participating in a study.
establishes minimum
standards. The EPA conducts         The EPA addressed six adverse events during its studies, reported them to the
human research studies to           IRB, and provided clinical follow-up after the events. While the clinical follow-up
better understand the health        appeared to be reasonable, the EPA’s policies, guidance and consent forms do not
effects of pollution on humans.     establish the EPA’s clinical follow-up responsibilities. According to EPA managers,
                                    the agency uses the latest University of North Carolina at Chapel Hill (UNC) IRB’s
This report addresses the           adverse event definitions and reporting timeframes to respond to adverse events.
following EPA theme:                However, the agency’s guidance provides different definitions and reporting
                                    timeframes and does not state that the EPA has adopted the UNC-IRB definitions
 Addressing climate change         and timeframes. Using EPA’s guidance, the EPA reported two of the six adverse
  and improving air quality.        events later than required and did not report two other events to IRB.

                                     Recommendations and Planned Corrective Actions
For further information,
contact our public affairs office   We recommend that the EPA establish procedures for obtaining HSRRO approval
at (202) 566-2391.                  of significant study modifications, ensure consent forms consistently address
                                    pollutant risks, update its guidance to include the EPA’s clinical follow-up
The full report is at:              responsibilities, and address a number of other recommendations. The EPA
www.epa.gov/oig/reports/2014/       concurred with all recommendations and provided planned corrective actions and
20140331-14-P-0154.pdf
                                    completion dates that meet the intent of the recommendations. All
                                    recommendations have been resolved.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460



                                                                                     THE INSPECTOR GENERAL




                                              March 31, 2014

MEMORANDUM

SUBJECT:	 Improvements to EPA Policies and Guidance Could Enhance Protection of
          Human Study Subjects
          Report No. 14-P-0154

FROM:	         Arthur A. Elkins Jr.

TO:	           Lek Kadeli, Acting Assistant Administrator
               Office of Research and Development

This is our report on the subject evaluation conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit resolution procedures.

The EPA office having primary responsibility over the issues evaluated in this report is the Office of
Research and Development’s National Health and Environmental Effects Research Laboratory.

Action Required

The agency agreed with all recommendations and provided planned corrective actions and completion
dates that meet the intent of these recommendations. Therefore, the agency is not required to provide a
written response for these recommendations. Recommendation 2 is closed and no further action is
required. For the remaining recommendations, which are in an open status, please update the EPA’s
Management Audit Tracking System as you complete the planned corrective actions. Please notify my
staff if there is a significant change in the agreed-to corrective actions. Should you choose to provide a
response to this final report, we will post your response on the OIG’s public website, along with our
memorandum commenting on your response. You should provide your response as an Adobe PDF file
that complies with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended.

We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Carolyn Copper,
Assistant Inspector General for Program Evaluation, at (202) 566-0829 or copper.carolyn@epa.gov;
or Rick Beusse, Director, Air Evaluations, at (919) 541-5747 or beusse.rick@epa.gov.
Improvements to EPA Policies and Guidance Could                                                                             14-P-0154
Enhance Protection of Human Study Subjects


                                  Table of Contents 

Chapters
   1	   Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Scope and Methodology ..............................................................................               9     


   2	   Studies Obtained Required Approvals, but Sequence of Approvals Not 

        Followed and Procedures Could Be Improved................................................                                 12


                Required Approvals Obtained to Conduct Five Human Research Studies,
                    but Sequence of Approvals Did Not Follow NHEERL Guidance ..........                                           12 

                EPA Could Strengthen Protection of Human Subjects by
                    Developing Guidance Concerning Study Modifications........................                                    15

                Formal Ethics Training Requirements Met, but Procedure
                    Needed to Track Annual Continuing Education Requirements ............                                         16 

                One Human Research Study Exposed a Study Subject Above
                    Concentration Targets but Followed Approved Protocol ......................                                   16 

                Conclusions .................................................................................................     17     

                Recommendations ......................................................................................            17         

                Agency Comments and OIG Evaluation ......................................................                         18 


   3	   EPA Obtained Informed Consent From Human Subjects, but 

        Consent Forms Addressed Pollutant Exposure Risks Differently ................                                             19 


                EPA Followed Requirements of 40 CFR 26.116 .........................................                              19 

                Consent Forms Addressed Risks of Studies’ Medical Procedures .............                                        21 

                Studies’ Consent Forms Addressed Risks of
                    Pollutant Exposures Inconsistently .......................................................                    21 

                Consent Forms for Diesel Exhaust Studies Did Not Include
                    Potential Cancer Risks From Long-Term Exposure .............................                                  23 

                Conclusions .................................................................................................     24     

                Recommendations ......................................................................................            25     

                Agency Comments and OIG Evaluation ......................................................                         25 


   4	   Improvements Needed in EPA Guidance to Address
        Adverse Event Definitions, Reporting Timeframes and
        Clinical Follow-Up Responsibilities..................................................................                     26 


                Clinical Follow-Up Provided but Guidance and Study Protocols 

                     Lack Clinical Follow-Up Responsibilities ..............................................                      26 

                NHEERL Guidance Does Not Reflect the Adverse Event Definitions 

                     and the Reporting Timeframes the Agency Reports Using .................                                      29 

                Other Matters ..............................................................................................      32         

                Conclusions .................................................................................................     32     

                Recommendation ........................................................................................           33     

                Agency Comments and OIG Evaluation ......................................................                         33 


                                                            -continued-
Improvements to EPA Policies and Guidance Could                                                                            14-P-0154
Enhance Protection of Human Study Subjects


   Status of Recommendations and Potential Monetary Benefits..............................                                       34 




Appendices
   A    EPA Air Quality Index for Particle Pollution ....................................................                        36


   B    Agency Comments on Draft Report .................................................................                        37


   C    OIG Evaluation of Agency Comments..............................................................                          42


   D    Definitions of Adverse Events and Unanticipated Problems.........................                                        45 


   E    Distribution .........................................................................................................   46 

                                       Chapter 1

                                        Introduction
Purpose
                In response to a congressional request, the Office of Inspector General (OIG)
                conducted a review of the U.S. Environmental Protection Agency’s (EPA’s)
                research involving human subjects to determine whether the EPA followed
                applicable laws, regulations, policies, procedures and guidance when it exposed
                human subjects to concentrated airborne particles or diesel exhaust emissions. Our
                specific objectives were to determine whether the EPA, in conducting five studies1
                that exposed human subjects to diesel exhaust emissions or Concentrated Air
                Particles (CAPS) during 2010 and 2011:

                     1) Obtained sufficient approval to expose subjects to specific levels of diesel
                        exhaust emissions or concentrated airborne particles;

                     2) Obtained adequate informed consent from human study subjects before
                        exposing them to diesel exhaust emissions or concentrated airborne
                        particles; and

                     3) Adequately addressed any adverse events that occurred, including:  
                         
                            (a) Notifying the University of North Carolina at Chapel Hill’s
                                (UNC’s) Institutional Review Board (IRB), the Human Studies
                                Review Board (HSRB) and the EPA Human Subjects Research
                                Review Official (HSRRO);

                            (b) Revising consent forms as needed; and

                            (c) Providing clinical follow-up in accordance with the approved
                                protocol. 

Background

                 What Is Human Subjects Research?

                 According to the EPA, any project that collects data from or about humans may
                 constitute human subjects research. As such, it would be subject to EPA-issued
                 regulations regarding the protection of human subjects under Title 40, Part 26 of
                 the Code of Federal Regulations (CFR). Under these regulations, the EPA defines
                 “human subject” as a “living individual about whom an investigator conducting

1
     The studies were entitled XCON, KINGCON, OMEGACON, DEPOZ and LAMARCK.


14-P-0154                                                                                          1
                research obtains 1) data through intervention or interaction with the individual, or
                2) identifiable private information.” Interventions include physical procedures or
                manipulations of the subject or the subject’s environment by which data are
                gathered. Interaction includes communication or interpersonal contact between
                investigator and subject. Research is defined as a “systematic investigation…
                designed to develop or contribute to generalizable knowledge.”

                The EPA has been conducting controlled exposure studies for about 40 years. In
                controlled exposure studies, human subjects are intentionally exposed to
                pollutants under controlled conditions. These studies allow investigators to isolate
                and explain health events related to such exposures. According to National Health
                and Environmental Effects Research Laboratory (NHEERL) guidance, the studies
                can also help estimate “safe threshold exposures for humans.” The EPA is among
                15 federal agencies2 that have adopted rules governing the protection of human
                subjects used in this and other types of human subjects research.

                Why Does the EPA Conduct Research Involving Human Subjects?

                The Clean Air Act (CAA) authorizes the EPA Administrator to establish a
                national research and development program for the prevention and control of air
                pollution. According to the CAA, the Administrator shall conduct a research
                program on the short-term and long-term effects of air pollutants on human
                health. When conducting the research program, the Act states that the
                Administrator shall conduct studies, including epidemiological, clinical and
                laboratory and field studies as necessary to identify and evaluate exposure to, and
                effects of, air pollutants on human health. The Administrator has established this
                program within the agency’s Office of Research and Development (ORD).

                The CAA amendments of 1990 require the EPA to set and periodically review
                National Ambient Air Quality Standards (NAAQS) for pollutants considered
                harmful to public health and the environment. The EPA’s controlled exposure
                studies help set these standards by identifying exposure-response relationships
                and providing more information on how the body interacts with particular
                pollutants. The EPA’s Office of Research and Development prepares multiyear
                plans in conjunction with the Office of Air and Radiation to determine the various
                human research studies that ORD will need to conduct to answer its key research
                questions. From fiscal years 2009 to 2013, the agency spent an average of about
                $3.46 million per year, or slightly over $17.3 million for the 5 years, and
                maintained about 19 full-time equivalents (FTEs) to support the EPA’s human
                subjects research conducted by ORD’s Clinical Studies Branch.




2
 According to the Department of Health and Human Services, 15 federal agencies adopted the Common Rule in
1991 by issuing regulations.


14-P-0154                                                                                                   2
            EPA’s Human Studies Facility

            The EPA’s Human Studies Facility, located on the UNC campus, is primarily
            intended for research to support EPA standards and regulations and is equipped to
            study the health effects of airborne pollutants on humans. The facility has the
            capability to deliver gaseous pollutants at precise concentrations across a broad
            range of atmospheric conditions. Human subjects research exposure systems used
            by EPA include two small (36 square feet) and two large (300 square feet) study
            chambers and one neurophysiological test room.




            A small chamber (36 square feet) used for diesel studies (left) and a large chamber
            (300 square feet) used for ozone studies (right). (EPA OIG photos)


                                                       The facility also has several exam rooms
                                                       where EPA staff conduct physical exams on
                                                       study subjects prior to their participation in a
                                                       study. According to ORD managers, the
                                                       agency uses the physical exams to exclude
                                                       individuals who might be at risk for
                                                       experiencing an adverse event during the
                                                       study.

                                                       Key Criteria Governing EPA Research
                                                       Involving Human Subjects

                                                       The EPA conducts research involving
            Exam room where NHEERL conducts            intentional exposures of human subjects to
            initial and follow-up physical exams on    pollutants. The agency performs this
            study participants. (EPA OIG photo)
                                                       research under a number of statutory,
                                                       regulatory and agency orders, policies and
                                                       guidance.




14-P-0154                                                                                             3
            Title 40 CFR 26

            Title 40 CFR 26 (the Common Rule) provides the regulatory framework under
            which the EPA conducts research involving human subjects. The regulation
            requires that the agency provide “written assurance” that it will comply with the
            Common Rule. The assurance must include, among other things, a “statement of
            principles” governing its responsibilities for protecting human subjects. It must
            also include the designation of an IRB to review research proposals. Additionally,
            it must include procedures for ensuring that unanticipated problems involving
            risks to subjects are reported to the IRB and other agency officials. The EPA
            possessed an active Federalwide Assurance from the Department of Health and
            Human Services to conduct human subject research during 2010 and 2011.

            The regulation also sets forth the requirements for an IRB. These include the
            membership, functions and operations, and criteria for approval of research. In
            addition, the regulation sets requirements for informed consent. According to the
            regulation, the investigator must give the prospective study subject sufficient
            opportunity to consider whether or not to participate. In addition, the regulation
            requires that the consent form:

               	 Present the information in language understandable to the subject.
               	 Provide a description of any reasonably foreseeable risks or discomforts to
                  the subject.
               	 Disclose alternative courses of treatment, benefits to the subject and
                  identification of any experimental procedures.
               	 Contain a statement that participation is voluntary.

            The regulation also requires that the prospective study subject be provided a copy
            of the consent form.

            EPA Order 1000.17 Change A1

            The agency issued EPA Order 1000.17 in 1977. In 1999, the policy was replaced
            with EPA Order 1000.17 Change A1, and it was amended in 2011 to ensure that
            the EPA complied with the Common Rule. It requires that the EPA’s HSRRO
            approve all research involving human subjects conducted or supported by the
            EPA unless otherwise exempt. The Order establishes a presumption that “studies
            involving risk of substantial injury to a human subject from the conduct of the
            study and that studies testing for irreversible health effects in humans will not be
            approved…, unless strongly persuasive additional justification acceptable to the
            Review Official (HSRRO) is submitted.”




14-P-0154                                                                                          4
            National Health and Environmental Effects Research Laboratory Policy
            and Guidance

            ORD’s NHEERL is the only EPA laboratory that conducts controlled human
            exposure studies. The Laboratory issued a policy in 2004 and updated guidance in
            2010 governing NHEERL human subjects research activities. The policy, along
            with the EPA Order, requires that all human subjects research be approved or
            determined to be exempt by the HSRRO. The HSRRO is independent from and
            not organizationally located within NHEERL. The NHEERL Human Research
            Guidance provides more detailed information on the NHEERL approval process.
            This includes which officials and staff must review the protocol prior to IRB
            submission. It also includes the special reviews required for controlled exposure
            studies. According to NHEERL guidance, any full scale controlled-exposure
            study of subjects to known pollutants must be reviewed by two external reviewers
            and receive a medical review if there is more than minimal risk. Once the IRB
            approves the study protocol, a study justification document is prepared which
            describes the risks to study participants versus the benefits to society, as well as
            why the study could not be conducted using animals. The entire package is then
            reviewed and approved by the Director of the Human Research Protocol Office
            (HRPO), the Environmental Public Health Division Director, the NHEERL
            Associate Director for Health, and the HSRRO.

            The NHEERL guidance also provides detailed information on the informed
            consent process. For example, the document states that “informed consent is a
            process, not a form.” Information must be presented in a way to allow subjects to
            decide voluntarily whether to participate. It must use “lay language,” especially in
            describing the study purpose, duration, risks and benefits. The document suggests
            language be at the 8th to 10th grade reading level.

            NHEERL guidance defines an adverse event as undesirable and unintended,
            though not necessarily unanticipated, injury or physical or emotional consequence
            to a human subject. These events can be serious and/or unanticipated. They also
            have different reporting requirements according to their severity. (Table 9 in
            Chapter 4 provides detailed definitions for each of these events). The more
            serious the event, the more quickly the principal investigator must report the event
            to the IRB. The report must be written and include information for the IRB to
            “judge whether or not the event raises new questions about risks to participants or
            the research design.”

            Health Impacts and Exposure Levels for Two Key Air Pollutants
            ORD has conducted research involving intentional exposures of human subjects
            to fine particulate matter and diesel exhaust for over 10 years. Based on years of
            research, the EPA has established acceptable levels of exposure for fine particles,
            but has not established a level for diesel exhaust other than as a source of fine
            particulate matter.



14-P-0154                                                                                      5
            Fine Particulate Matter

            Particulate matter (PM) is a complex mixture of harmful solid and liquid particles.
            Fine particles that are less than or equal to 2.5 microns in diameter are known as
            fine particulate matter (PM2.5). These particles are about 1/30th the thickness of a
            human hair. The greatest number of particles is usually concentrated in the
            “ultrafine” range. This range represents particles that are less than or equal to
            0.1 microns in diameter or about 1/1000th to 1/10,000th the thickness of a human
            hair. Because fine and ultrafine particles can penetrate deeply into the respiratory
            tract, these smaller particles may be more likely to cause adverse health effects
            than larger particles. CAPS are fine particles collected from the immediate
            environment that are concentrated using specialized equipment. By concentrating
            air particles, ORD can mimic the levels of pollution that humans are exposed to in
            other areas, such as severe nonattainment areas in the United States and more
            polluted cities in the world.

            NHEERL has two ambient-air-particle concentrators for studying the effects of
            concentrated particulate matter. Available systems include a coarse-particle
            concentrator for particle sizes from 2.5 to 10 micrometers and a fine/ultrafine­
            particle concentrator for particles 2.5 micrometers and smaller.




            The turquoise, gray and red pipes are used to control the airstream conditions,
            temperature and humidity in a test chamber (left) and a bank of analyzers used for
            pollutant monitoring (right). (EPA OIG photos)

            Diesel Exhaust

            Diesel exhaust is produced when an engine burns diesel fuel. Diesel exhaust is a
            complex mixture of more than 40 toxic air contaminants. These include 19 known
            or suspected carcinogens, such as benzene, formaldehyde and 1,3-butadiene.
            Particles emitted from diesel engines are usually concentrated in the “ultrafine”
            range. Their small size makes them highly respirable and able to reach the deep
            lung. The improvement in the development of diesel technologies over the last
            few decades has led to diesel engines with reduced emissions.


14-P-0154                                                                                        6
                  Table 1 describes the health impacts from short-term and long-term exposures to
                  PM2.5 and diesel exhaust. While some of these impacts are serious, the persons
                  most at risk are children, elderly people and people with heart and lung disease.
                  According to several EPA managers and documents we reviewed, EPA excluded
                  persons most at risk from the subject population.

Table 1: Health impacts from exposure to fine particulate matter and diesel exhaust
    Pollutant    Exposure         Respiratory impacts           Cardiovascular impacts          Other impacts
     PM2.5       Short-term   Aggravated lung disease,          In people with heart       Mortality
                 exposurea    causing asthma attacks and        disease, exposure linked
                              acute bronchitis, and may         to heart attacks and
                              also increase susceptibility      arrhythmias.
                              to respiratory infections.
                 Long-term    Respiratory-related disease       Cardiovascular-related     Mortality and suggestive
                 exposure     and respiratory effects.          mortality and              of lung and other cancers
                                                                cardiovascular effects.    and reproductive and
                                                                                           developmental effects.
      Diesel     Short-term   Respiratory effects including     Cardiovascular effects     Irritation to the eyes and
                          a
    exhaust/PM   exposure     irritation to throat and lungs,   such as worsening heart    nose and neurological
                              a cough, nausea and               diseaseb                   effects such as
                              exacerbated asthma.                                          lightheadedness.
                 Long-term Respiratory effects including                               Lung cancer and mortality.
                 exposure      lung inflammation.
Source: OIG analysis of the EPA’s Integrated Science Assessment for PM, EPA websites on particulate matter and 

diesel particulate matter, National Ambient Air Quality Standards for PM (December 2012) and the U.S. EPA. Health 

Assessment Document for Diesel Engine Exhaust (Final 2002). U.S. EPA Office of Research and Development, 

National Center for Environmental Assessment, Washington, D.C., EPA/600/8-90/057F, 2002.

a
  According to the agency, short-term epidemiological studies generally involved exposures ranging from 1 to 5 days. 

The length of the exposure sessions for the five studies the OIG reviewed can be found in table 3.

b
  Health impacts for diesel exhaust were combined because sources did not distinguish between short- and long-term 

effects. 


                  Exposure Levels for PM2.5

                  The Clean Air Act required that the EPA establish standards, or acceptable levels
                  of exposure, with an “adequate margin of safety” for each of the criteria
                  pollutants. The EPA has set NAAQS for particulate matter. PM2.5 is one of the six
                  principal or "criteria" pollutants. Table 2 lists the levels of exposure for PM2.5 for
                  the 24-hour and annual levels. Primary standards provide public health protection,
                  including protecting the health of “sensitive” populations such as asthmatics,
                  children, and the elderly. Secondary standards provide public welfare protection,
                  including protection against decreased visibility and damage to animals, crops,
                  vegetation and buildings. Appendix A lists the PM2.5 concentrations associated
                  with the EPA’s Air Quality Index for Particle Pollution.




14-P-0154                                                                                                               7
Table 2: NAAQS Standards for PM
           Pollutant               Primary/          Averaging
                                                                           b
       [final rule cite]          secondary            time        Level                            Form
                                                                               3
                             Primary                 Annual      12 μg/m           Annual mean, averaged over 3 years
    Particle
                             Secondary               Annual      15 μg/m
                                                                               3
                                                                                   Annual mean, averaged over 3 years
    pollution        PM2.5
    Dec 14, 2012a
                             Primary and secondary   24-hour     35 μg/m3          98th percentile, averaged over 3 years
Source: The EPA’s summary of NAAQS standards, December 14, 2012.
a
    On December 14, 20123, the EPA revised its existing standards for PM.
b
    Units of measure are micrograms per cubic meter of air (µg/m3).



                     Exposure Levels for Diesel Exhaust

                     Diesel engines are one source of PM. The EPA has not established levels of
                     acceptable exposure for diesel exhaust other than as particulate matter. The EPA
                     has stated that long-term inhalation exposure to diesel exhaust is likely to pose a
                     lung cancer hazard to humans.

                     EPA’s Human Research Studies for PM and Diesel Exhaust

                     Over the last 10 years, the EPA has conducted 13 human exposure studies using
                     CAPS and four studies using diesel exhaust. According to an EPA principal
                     investigator, the exposure levels selected for a study reflect a balance between being
                     high enough to produce biological responses but not so high as to produce clinical
                     responses in a study subject. For example, a biological response would be a short-
                     term, reversible response such as inflammation that goes away in a few days. In
                     contrast, a clinically significant response could put a study subject at medical risk.
                     Table 3 describes the five CAPS and diesel exhaust studies conducted in 2010 and
                     2011 that we reviewed.




3
 EPA published the final rule for 40 CFR Parts 50, 51, 52 et al., NAAQS for PM, in the Federal Register on
January 15, 2013. The final rule became effective on March 18, 2013.


14-P-0154                                                                                                                   8
    Table 3: EPA particulate matter and diesel exhaust human research studies conducted in 2010-2011
                   Pollutant(s)        Pollutant                                       Study protocol         Number of
                       that         concentration                                      description of           study
                    humans           approved by          Length of pollutant          study subjects          subjects
                      were            IRB (PM or        exposure approved by          approved by the        exposed in
   Study           exposed to      diesel exhaust)                IRB                        IRB            2010 and 2011
XCON               CAPS (PM)        Up to 600,000        2 two-hour exposures:           Adults 25 to             23
                                   particles per cc       1 PM and 1 clean air         70 years of age
                                                               exposurea                with metabolic
                                                                                                    b
                                                                                          syndrome
OMEGACON           CAPS (PM)       Up to 600 μg/m3       2 two-hour exposures:          Healthy adults             17
                                                          1 PM and 1 clean air        50 to 75 year olds
                                                               exposure
KINGCON            CAPS (PM)       Up to 600 μg/m3       2 two-hour exposures:        45 to 65 years of            5
                                                          1 PM and 1 clean air         age with mild
                                                               exposure              asthma who were
                                                                                        non-smokers
LAMARCK               Diesel          300 μg/m3          3 two-hour exposures:       Healthy adults and            25
                   exhaust and                         1 ozone, 1 diesel exhaust,    adults with mild to
                      ozone                             and 1 clean air exposure     moderate asthma
DEPOZ                 Diesel          300 μg/m3          4 two-hour exposures:         Healthy adults              18
                   exhaust and                            1 diesel exhaust and       18 to 55 years old
                      ozone                               ozone, 1 ozone only,
                                                       1 diesel exhaust only, and
                                                          1 clean air exposure
                                                         followed by a two hour
                                                         exposure to ozone the
                                                                next day
                                                                                                                       c
TOTAL                                                                                                             88
Source: OIG analysis of information provided by the EPA ORD NHEERL.
a
  All of the studies exposed human subjects to clean air as a scientific control. 

b
  The National Cholesterol Education Program characterizes metabolic syndrome patients as having three of the 

following: increased abdominal girth, elevated blood pressure, dyslipidemia (abnormal amount of fats and cholesterol 

in the blood), elevated fasting triglycerides and elevated fasting glucose. 

c
  Seven individuals participated in two studies or 81 unique individuals participated in the 5 studies during 2010 and 2011.



                   The EPA offered to pay the human subjects participating in the five studies a
                   maximum of about $950 to about $3,700. Study subjects are paid more to
                   participate in lengthier, more complex studies. The UNC-IRB approved the
                   payment amounts for these five studies.

    Scope and Methodology
                   In response to a request by Congress, we assessed whether the EPA followed
                   applicable laws, regulations, policies, procedures and guidance when it exposed
                   41 human subjects to concentrated airborne particles or diesel exhaust emissions
                   during three specific studies (XCON, KINGCON and OMEGACON) that the
                   EPA conducted in 2010 and 2011. Additionally, because of Congressional interest
                   in the exposure of subjects to diesel exhaust emissions, we also reviewed two
                   other EPA studies (DEPOZ and LAMARCK) where subjects were exposed to
                   diesel exhaust during the 2010–2011 timeframe. For these studies, we evaluated
                   (1) the sufficiency of the approval process; (2) the adequacy of the process for




    14-P-0154                                                                                                              9
            obtaining the study subject’s informed consent; and (3) the adequacy of the EPA’s
            response to any adverse events.

            To determine if the EPA obtained sufficient approval to expose subjects to
            specific levels of CAPS or diesel exhaust emissions, we obtained and reviewed
            federal and EPA regulations, policies and guidance concerning human subjects
            research. We reviewed the study protocols for all five studies, including the study
            applications, consent forms, and EPA HSRRO and IRB review and approval
            documents. We compared the EPA’s and the IRB’s documentation of decisions,
            actions and events with the requirements of the Common Rule (40 CFR Part 26).
            We also compared them to EPA Order 1000.17 Change A1 and ORD and
            NHEERL policies. We interviewed current and former managers and staff from
            ORD and the Office of the Science Advisor. We interviewed the principal
            investigators for the five studies we reviewed. We also interviewed managers and
            staff from the Office of Human Research Ethics (OHRE) at UNC who oversee the
            IRB for EPA’s human subjects research conducted at the Human Studies Facility
            in Chapel Hill.

            To determine if the EPA obtained adequate informed consent from human study
            subjects before exposing them to concentrated airborne particles or diesel exhaust
            emissions, we obtained and reviewed the 88 signed consent forms from 81study
            subjects that were exposed to pollutants during 2010 and 2011 in the five studies.
            Seven individuals participated in two of the five studies we reviewed. Thus,
            81 unique individuals participated in the five studies from 2010 to 2011. In
            addition, we interviewed nine study subjects who participated in at least one of
            the five studies. This included three human subjects who experienced adverse
            events, two study subjects who did not complete all exposure sessions, and four
            study subjects who did not experience an event. We also discussed informed
            consent procedures with the principal investigators for each of the five studies.
            The interviews provided us with information about how the EPA obtained
            informed consent from the study subjects, addressed adverse events and provided
            clinical follow-up.

            To determine whether the EPA adequately addressed any adverse events that
            occurred, for each adverse event we obtained and reviewed the documentation of
            EPA’s notification to the IRB. We also reviewed other notifications such as to the
            EPA HSRRO. Additionally, we determined whether the EPA revised the consent
            forms after an event. We also assessed whether the EPA provided clinical
            follow-up in accordance with the approved protocol. We reviewed the EPA and
            the IRB documentation of adverse events and medical notes about the subjects.
            We interviewed the principal investigators for the five studies we reviewed, as
            well as ORD managers and staff about the adverse events that occurred. We also
            interviewed managers and staff from OHRE at UNC. The EPA office having
            primary responsibility over the issues evaluated in this report is ORD’s National
            Health and Environmental Effects Research Laboratory.




14-P-0154                                                                                   10
            We conducted our review from November 2012 to January 2014 in accordance
            with generally accepted government auditing standards. Those standards require
            that we plan and perform our review to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our objectives.

            Prior Reports

            Prior reports by the U.S. Government Accountability Office (GAO) applicable to
            the topics addressed by this evaluation included:

               	 GAO Report No. 09-448T: Undercover Tests Show the Institutional
                   Review Board System Is Vulnerable to Unethical Manipulation,
                   March 26, 2009. 

               	 GAO Report No. 01-775T: HUMAN SUBJECTS RESEARCH: HHS
                   Takes Steps to Strengthen Protections, but Concerns Remain, May 23,
                   2001. 

               	 GAO Report No. HEHS-96-72: SCIENTIFIC RESEARCH: Continued
                  Vigilance Critical to Protecting Human Subjects, March 8, 1996. 
       




14-P-0154                                                                                   11
                                  Chapter 2

          Studies Obtained Required Approvals, 

       but Sequence of Approvals Not Followed and 

             Procedures Could Be Improved 

            The EPA obtained required approvals to expose study subjects to specific levels
            of concentrated airborne particles and diesel exhaust emissions. For each study,
            the EPA obtained approval to conduct the study from one of UNC’s biomedical
            IRBs, internal NHEERL division and senior management, and the EPA’s
            HSRRO. The EPA’s HSRRO resides within the Office of the Science Advisor
            and is independent of ORD’s NHEERL. However, in four of five studies, the
            branch chief approved the study on the NHEERL sign-off sheet after the initial
            IRB approval. In addition, several of the reviews did not occur in the order called
            for in NHEERL guidance, and information was missing on the NHEERL sign-off
            sheet for several studies. While EPA regulations and policy require that the IRB
            approve all study modifications, the EPA’s regulations, policy and guidance do
            not address the review and approval process for study modifications, including
            when a study modification would be significant enough to obtain the HSRRO’s
            approval. For example, we found a study modification approved by the IRB that
            doubled the concentration level of pollutant exposure but was not reviewed by the
            HSRRO. In our view, the EPA should revise its NHEERL guidance to include the
            review and approval process for study modifications, including a definition of
            significant study modifications that should be reviewed by the HSRRO. By
            revising its guidance, the EPA would help ensure that significant modifications
            receive a second independent review. In addition, while the investigators fulfilled
            their initial formal ethics training, we were unable to confirm whether they had
            met their continuing education requirements because NHEERL does not have a
            procedure for documenting the completion of the annual ethics refresher training.

Required Approvals Obtained to Conduct Five Human Research
Studies, but Sequence of Approvals Did Not Follow NHEERL Guidance
            The EPA obtained required approvals for the five human research studies we
            reviewed. However, the EPA did not follow NHEERL guidance for its NHEERL
            reviews and approvals. According to NHEERL guidance, the branch chief must
            review and approve the protocol, informed consent form, and all other items to be
            sent to the IRB before the principal investigator sends these items to the IRB. The
            guidance also states that all required reviews and responses are obtained in
            writing and approvals are recorded on the NHEERL sign-off sheet, and that initial
            reviews, such as the medical and statistical review, occur before the branch chief
            and IRB review. NHEERL requires that peer reviewer comments and principal
            investigator responses be sent to the IRB with the protocol. This helps ensure that
            the IRB sees the full research proposal, including any peer review comments.


14-P-0154                                                                                    12
            After the IRB approval, the Division Quality Assurance Officer reviews the
            protocol, then the HRPO Director, and then the Division Director. In our review
            of the sign-off sheets, we found:

                  In four of the five studies, the branch chief approved the study on the
                   NHEERL sign-off sheet after the initial IRB approval.
                  In three of the five studies, the physician signed the NHEERL sign-off
                   sheet after the IRB approval.
                  In two studies, the HRPO signed the NHEERL sign-off sheet after the
                   division director, and in one study the HRPO signed before the Division
                   Quality Assurance Officer.
                  In two studies, NHEERL received peer reviews after the initial IRB
                   approval of the study.
                  In one study, the statistician’s review occurred after the initial IRB
                   approval of the study.

            In one study, the sign-off sheet did not have dates for the statistician, physician,
            peer reviews, and the division director approval. When requested, the principal
            investigator was unable to provide us documentation with the missing dates.
            According to an NHEERL manager, there is no obligation to obtain sign-off in a
            particular order other than all signatures must be obtained before sending the
            package on for the approval of the Associate Director of Health. The EPA needs
            to ensure that NHEERL properly documents its review and approval steps for
            human research studies as stated in NHEERL guidance.

            The EPA’s regulations (40 CFR 26.109) require that an IRB review and approve
            initial study protocols as well as any study modifications before a study can begin
            or be modified. An IRB is an independent institution designated to review, approve
            and monitor approved research involving human subjects. The IRB reviews the
            study protocol, the consent form or forms and advertisements to recruit study
            subjects. The IRB also asks questions as needed to clarify issues before giving its
            approval. The protocols for each of the studies included information about the
            levels of pollutant exposure and the associated risks. In one case, the IRB made its
            approval contingent upon additional statements about the study risks being added to
            the consent forms. Once the EPA had addressed the IRB’s questions or
            requirements to the IRB’s satisfaction, the IRB approved each study.

            EPA Order 1000.17 Change A1 requires the EPA HSRRO to approve human
            subjects research studies supported by the EPA. The EPA’s HSRRO serves as an
            expert technical resource in matters of human research ethics and subject safety.
            The HSRRO also provides guidance and leadership in these areas. According to
            NHEERL guidance, each human research study should also receive NHEERL
            branch, division and management level reviews, in addition to IRB review and
            approval, before being sent to the EPA’s HSRRO for review and approval.
            Figure 1 is a flowchart of the review and approval process.




14-P-0154                                                                                      13
 Figure 1: Flowchart of review and approval of NHEERL study protocols


     Draft             Initial branch-level      Revised                         IRB
    Protocol                  reviews            protocol                       review
                      (extramural, medical,
                       Branch Chief, etc.)

                                                            Yes
                                                                               Changes?

                                                                                              No

                                                                   Division-level reviews
                                                            (Quality Assurance, Dosing, Branch
                                                                 Chief, Division Director)


                                                            Yes
                                                                               Changes?


                                                                                         No
                                                                    NHEERL-level reviews
                                                                  (HRPO Director, Associate
                                                                     Director for Health)

                                                            Yes
                                                                               Changes?


                                                                                         No
                                                                             HSRRO review


                                                            Yes
                                                                               Changes?


                                                                                          No
                                                                           Begin research
 Source: OIG flowchart based on NHEERL Guidance, 2010.

               ORD’s NHEERL guidance incorrectly lists the HSRRO review under the
               NHEERL level reviews. The guidance also identifies the Division Human
               Research Officer (DHRO) as a division-level reviewer when no one has filled the
               position according to an NHEERL manager. NHEERL policy requires each
               NHEERL division conducting human subjects research to appoint a DHRO to
               ensure compliance with federal regulations and NHEERL human research policy.
               The HRPO has been fulfilling this role according to an NHEERL manager.
               Clarifying ORD’s guidance and vesting the review responsibilities of the DHRO


14-P-0154                                                                                          14
            in an existing position, such as the HRPO Director, will better ensure that initial
            study protocols and significant modifications receive thorough reviews.

            The EPA received approvals from one of the UNC’s biomedical IRBs and the
            EPA’s HSRRO for each of the five studies as required by 40 CFR 26.109,
            EPA Order 1000.17 Change A1 and the NHEERL guidance. According to ORD
            managers, this two-level review process provides an additional level of protection
            to the study subjects that does not exist at most other research institutions. The
            EPA also documented the NHEERL branch and divisional reviews for the five
            studies using NHEERL sign-off sheets. We confirmed that the IRB reapproved
            the five protocols we reviewed annually and approved modifications to the
            studies. We also verified that the HSRRO approved the five studies before they
            began.

EPA Could Strengthen Protection of Human Subjects by Developing
Guidance Concerning Study Modifications
            While 40 CFR Part 26.109(a) and EPA Order 1000.17 Change A1 require the IRB
            to approve all modifications, the EPA’s policies and guidance do not address the
            EPA internal review and approval process for modifications. In addition, the
            EPA’s policy and guidance do not address when the approval of the HSRRO
            would be necessary for significant study modifications. Study modifications are
            common. The IRB approved 18 modifications for the XCON study, 19
            modifications for KINGCON and 24 modifications for OMEGACON over the life
            of the three studies. Each modification application usually contained multiple
            changes to the study.

            While some study modifications are considered minor, such as when new
            investigators are added to the study, other study modifications may be significant.
            The KINGCON study’s June 2008 application stated that human subjects would
            be exposed to concentrated air particle levels between 50 and 300 µg/m3. The
            application stated that an exposure session would be shut down if the exposure
            concentration exceeded 400 µg/m3. However, in November 2008, the principal
            investigators modified the study to increase the upper limit of concentration to
            600 µg/m3. The EPA’s application for IRB approval of the modification stated
            that the concentration increase did “not increase risk” to study subjects in the
            study. This study modification, which some may consider significant, was not
            sent to the HSRRO for review. NHEERL management told us that the Director of
            the HRPO within NHEERL determines whether to send a modification to the
            HSRRO. By revising its guidance, EPA would help ensure that significant
            modifications receive an independent review and properly address any changes in
            risks to human subjects.




14-P-0154                                                                                         15
Formal Ethics Training Requirements Met, but Procedure Needed to
Track Annual Continuing Education Requirements
            According to NHEERL guidance, the conduct of human subjects research carries
            special responsibilities with regard to ethical, medical and scientific issues.
            Society has imposed special requirements on investigators because of concern of
            potential maltreatment of human research subjects. Ethics training helps ensure
            that risks to human subjects are not overlooked. NHEERL guidance requires that
            all EPA investigators involved in human subjects research attend formal human
            research ethics training. The Collaborative IRB Training Initiative (CITI) is a
            Web-based program that is used to satisfy the ethics training requirement. CITI
            training contains modules on topics including ethical principles, IRB regulations,
            informed consent and vulnerable populations. UNC maintains an electronic
            database of individuals who have completed the CITI basic educational
            requirements. For the five studies we evaluated, the EPA investigators involved
            with human subject research had completed the formal human research ethics
            training requirement.

            NHEERL policy and guidance also require that all personnel engaged in human
            subjects research complete continuing education (refresher training) on an annual
            basis. The annual continuing education requirement can be fulfilled by:
            1) completion of the on-line CITI Refresher course, or 2) attendance at one lecture
            or seminar with a primary focus on human research issues. We could not
            determine if the annual continuing education requirements were met by the EPA
            investigators involved in human subjects research because there was no
            documentation of their completion. We asked the Environmental Public Health
            Division Director whether a procedure exists to record and track annual
            continuing education training. The division director told us that NHEERL lacked
            a procedure for tracking this requirement, but that a mechanism would be
            implemented immediately. In September 2013, the division director provided us
            with a copy of the database page that will be used to track the training and
            proposed revisions to NHEERL guidance.

One Human Research Study Exposed a Study Subject Above
Concentration Targets but Followed Approved Protocol

            The five human research studies we reviewed allowed subjects to be exposed
            above the study concentration targets. For example, the OMEGACON protocol
            stated that an exposure was to be shut down if particulate concentrations exceeded
            600μg/m3 for over six minutes. Evidence shows that EPA exposed one
            OMEGACON study subject to pollutant concentrations that reached 751μg/m3,
            which exceeded the IRB-approved concentration target of 600 μg/m3. EPA
            computer-generated real time data from the exposure chamber showed that the
            exposure session was shut down six minutes after the first concentration of
            600 μg/m3 was recorded. Additionally, the Director of OHRE at UNC stated that
            studies’ approved pollutant concentrations are targets and not absolute safety


14-P-0154                                                                                    16
            limits, and in this instance, where the level did exceed the targeted range, the
            protocol was followed and the study session was halted.

            The other four human research studies we reviewed did not expose study subjects
            above the concentration limits.

Conclusions
            The EPA obtained the required approvals for the five studies we reviewed.
            However, in four of five studies, the branch chief approved the study on the
            NHEERL sign-off sheet after the initial IRB approval. In addition, several of the
            reviews did not occur in the order called for in NHEERL guidance, and
            information was missing on the NHEERL sign-off sheet for several studies.

            While the EPA regulations and policies require that the IRB approve all
            modifications, the EPA could improve its protection of human subjects if it
            established guidance for determining when study modifications are significant
            enough to require HSRRO approval. Additionally, while the investigators fulfilled
            the initial formal ethics training, we were unable to confirm that they had met the
            continuing education requirements because there was no procedure for
            documenting the completion of the annual refresher training. The EPA needs to
            ensure that the human research study team members obtain annual ethics training
            to properly protect study subjects.

Recommendations
            We recommend that the Assistant Administrator for Research and Development:

               1. Revise the NHEERL Human Research Guidance to include:

                     a.	 An EPA internal review and approval process for significant study
                         modifications which include a definition and illustrative examples of
                         significant study modifications. The review and approval process
                         should indicate when significant study modifications should be sent
                         to the HSRRO for review and approval.

                     b.	 A revised flowchart of the protocol review process listing the
                         HSRRO as an independent reviewer and not part of the NHEERL-
                         level review process and eliminating the DHRO review.

               2.	 Implement a procedure for documenting that human subjects research
                   study investigators have met the requirement for continuing annual ethics
                   education.

               3.	 Revise the NHEERL Human Research Policy to eliminate the DHRO
                   position and transfer the duties of the DHRO to the HRPO Director.


14-P-0154                                                                                      17
               4.	 Develop management controls to ensure NHEERL management reviews
                   and approvals are properly documented and follow NHEERL guidance.

Agency Comments and OIG Evaluation

            The agency concurred with all recommendations in Chapter 2 and provided
            acceptable planned corrective actions and completion dates for recommendations
            1(a), 1(b), 3, and 4. Recommendations 1(a), 1(b), 3, and 4 are resolved and open
            with corrective actions ongoing. NHEERL provided evidence that it has already
            completed the corrective actions for recommendation 2. This recommendation is
            closed and no further action is required. Appendix B contains the agency’s
            response to our draft report. Appendix C contains our detailed evaluation of that
            response.




14-P-0154                                                                                  18
                                  Chapter 3

        EPA Obtained Informed Consent From 

     Human Subjects, but Consent Forms Addressed 

         Pollutant Exposure Risks Differently

            The EPA obtained informed consent from human study subjects before exposing
            them to concentrated airborne pollutants or diesel exhaust in 2010 and 2011. Our
            interviews with nine human study subjects confirmed that:

                  They read the consent form.
 
                  They had the opportunity to review the consent form and ask questions.
 
                  An EPA representative explained the form to them prior to their 

                   participation in the study.
  
                  They signed the consent form. 


            In the five studies’ consent forms, the EPA addressed the risks of medical
            procedures and described certain risks of being exposed to CAPS or diesel
            exhaust. However, we found that the five studies’ consent forms inconsistently
            addressed the risks of being exposed to CAPS and diesel exhaust. Although the
            regulation (40 CFR 26, the Common Rule) requires that consent forms describe
            any “reasonably foreseeable risks or discomforts to the subject,” the regulation
            does not define this phrase. In our view, the lack of such a definition contributed
            to this inconsistency. Furthermore, the EPA did not include the potential long-
            term cancer risks in the diesel exhaust studies’ consent forms. According to an
            EPA NHEERL manager, this was because they only planned to perform short-
            term exposures and the risk of getting cancer from a single 2-hour exposure was
            minimal. In our view, the agency should inform study subjects of any potential
            cancer risks of a pollutant to which they are being exposed so that study subjects
            can make the most informed decision possible about whether to participate in a
            study.

EPA Followed Requirements of 40 CFR 26.116
            According to 40 CFR 26.116, EPA investigators need to obtain informed consent
            from study subjects before research begins. NHEERL guidance states that
            procedures used to obtain informed consent should educate the potential study
            subjects using language they understand. We obtained copies of the 88 consent
            forms for the five studies and found that the 81 study subjects had signed the
            consent forms and, in some cases, had initialed each page of the form. We
            analyzed the consent forms for the five studies and determined that the EPA met
            the regulation’s requirements as shown in table 4.




14-P-0154                                                                                     19
 Table 4: Basic elements of informed consent in the five studies’ consent forms
                                                                Element fulfilled in studies listed below
     Basic elements of informed consent             XCON        KINGCON OMEGACON LAMARCK                     DEPOZ
 1) A statement that the study involves
 research, an explanation of the purposes of
 the research and the expected duration of            ✓             ✓             ✓              ✓             ✓
 the subject's participation, a description of
 the procedures to be followed and
 identification of any procedures which are
 experimental.
 2) A description of any reasonably                   ✓             ✓             ✓              ✓             ✓
 foreseeable risks or discomforts to the
 subject.
 3) A description of any benefits to the              ✓             ✓             ✓              ✓             ✓
 subject or to others which may reasonably
 be expected from the research.
 4) A disclosure of appropriate alternative           Not          Not            Not            Not           Not
 procedures or courses of treatment, if any,       applicable   applicable     applicable     applicable    applicable
 that might be advantageous to the subject.
 5) A statement describing the extent, if any,        ✓             ✓             ✓              ✓             ✓
 to which confidentiality of records identifying
 the subject will be maintained.
 6) For research involving more than minimal
 risk, an explanation as to whether any
 compensation and an explanation as to                ✓             ✓             ✓              ✓             ✓
 whether any medical treatments are
 available if injury occurs and, if so, what
 they consist of, or where further information
 may be obtained.
 7) An explanation of whom to contact for
 answers to pertinent questions about the
 research and research subjects' rights, and          ✓             ✓             ✓              ✓             ✓
 whom to contact in the event of a research-
 related injury to the subject.
 8) A statement that participation is voluntary,
 refusal to participate will involve no penalty
 or loss of benefits to which the subject is          ✓             ✓             ✓              ✓             ✓
 otherwise entitled and the subject may
 discontinue participation at any time without
 penalty or loss of benefits to which the
 subject is otherwise entitled.
 Source: OIG analysis comparing the five studies’ consent forms with the requirements in 40 CFR 26.116(b).

                  Furthermore, interviews with nine study subjects confirmed that the principal
                  investigator or other EPA representative met with them and reviewed the content
                  of the consent forms with them. Eight of nine study subjects stated that they were
                  allowed to take the consent form home prior to their participation in the study;
                  one study subject could not remember. According to the study subjects we
                  interviewed, an EPA representative went over the consent form with them to a
                  great extent or to a very great extent.

                  Seven of nine study subjects stated that the consent form was easy to understand.
                  One study subject stated the consent form was very wordy and that, in the
                  subject’s opinion, less scientific language should be used; another thought an
                  executive summary was needed. Although both believed that improvements could




14-P-0154                                                                                                          20
                    be made to the consent form to make it easier to understand, the two study
                    subjects stated that EPA went over the consent form with them to a great extent.

Consent Forms Addressed Risks of Studies’ Medical Procedures
                    The consent forms for the five studies addressed the risks and discomforts of the
                    medical procedures involved in the studies. The consent forms discussed the
                    minimal risks of heart rhythm and blood pressure monitoring and blood sampling,
                    as well as the risks of more complex procedures such as brachial artery ultrasound.
                    For example, an optional procedure in the KINGCON study was a bronchoalveolar
                    lavage, which is used to obtain fluids and cells from the respiratory tract to analyze
                    the pulmonary response to particle exposure. In this procedure, a bronchoscope is
                    passed through the nostril to the back of the throat and wedged in an airway in the
                    right lung. Sterile saline is injected into the lung and then suctioned into the
                    bronchoscope. The EPA used five pages of the KINGCON 18-page consent form to
                    describe the bronchoalveolar lavage procedure, including the purpose of the
                    procedure, how it would be performed, reasons a potential subject should not
                    participate in the procedure and the potential risks. A similar description was
                    provided in the LAMARCK consent form.

Studies’ Consent Forms Addressed Risks of Pollutant Exposures
Inconsistently
                    We found inconsistencies in the content of the consent forms with respect to the
                    risks of pollutant exposure to CAPS (PM) and diesel exhaust. As shown in
                    table 5, the consent forms for all five studies compared the subject’s exposure to
                    the exposure they would receive while visiting a large city on a smoggy day.
                    However, only one of five studies’ consent forms provided the subject with
                    information on the upper range of the pollutant he or she would be exposed to and
                    only two of five alerted study subjects to the risk of death for older individuals
                    with cardiovascular disease.

    Table 5: Statements made in consent forms of the five studies reviewed
                           Comparison of study
                           exposure to exposure          Information about the        Information about risk of
                           visiting large city on a     upper range of pollutant         death for those with
        Studies                  smoggy day                    exposure                cardiovascular disease
    XCON                              Yes                         Yes                            Yes
    OMEGACON                          Yes                         No                              No
    KINGCON                           Yes                         No                              No
    LAMARCK                           Yes                         No                              No
    DEPOZ                             Yes                         No                             Yes
     Source: OIG analysis of consent forms for XCON, OMEGACON, KINGCON, DEPOZ and LAMARCK studies.


                    In a 2003 fact sheet4, the EPA’s message to the public about PM2.5 was that long-
                    term exposure is associated with reduced lung function and even premature death,

4
     Particle Pollution and Your Health (2003), U.S. EPA Office of Air and Radiation, EPA-452/F-03-001. 


14-P-0154                                                                                                         21
                 and short-term exposure is linked to heart attacks and arrhythmias for people with
                 heart disease. A 2006 EPA assessment document5 further reports associations
                 between short-term PM exposures and mortality and morbidity.

                 The XCON and DEPOZ study consent forms warned the study subjects that
                 exposure to high levels of selected air pollutants (i.e., PM, the pollutant being
                 tested in the XCON study and diesel exhaust, the pollutant being tested in the
                 DEPOZ study) could lead to death in older people with cardiovascular problems.
                 This warning was not in the OMEGACON, KINGCON, or LAMARCK consent
                 forms, even though these studies also exposed study subjects to PM
                 (OMEGACON, KINGCON) and diesel exhaust (LAMARCK). According to an
                 NHEERL manager, the exposure risk for healthy individuals is minimal. Because
                 the three studies’ consent forms (OMEGACON, KINGCON and LAMARCK)
                 lacked the warning that PM exposure can cause death in older people with
                 cardiovascular disease, they are significantly different in their disclosure of
                 exposure risk than the XCON and DEPOZ consent forms. This lack of warning
                 about PM in OMEGACON, KINGCON and LAMARCK is also different from
                 the EPA’s public message about PM.

                 Only the XCON study consent form identified the upper range of pollutant
                 exposure for each study subject. The other four studies’ consent forms did not
                 mention the level of pollutant exposure. Instead, the forms for the other four
                 studies (DEPOZ, KINGCON, LAMARCK and OMEGACON) compared the
                 subject’s level of exposure during the study to the exposure they would receive
                 visiting major cities on smoggy days. According to an NHEERL manager, this
                 comparison to a major city was a practical way for the subjects to understand the
                 relative risk of exposure. The manager explained that a person breathing 420
                 µg/m3 for 2 hours would inhale the same concentration as they would breathing
                 35 µg/m3 (the EPA’s 24-hour standard for PM2.5) for 24 hours in a city such as
                 Los Angeles. The manager also stated that PM risk is focused on susceptible
                 populations and that the risk is small for those with no overt disease. One human
                 subject that we interviewed believed, in hindsight, that the pollutant exposure
                 range should be included in the consent form.

                 The EPA has not defined the term “reasonably foreseeable risks” in its
                 regulations. According to an August 2013 article in the Journal of Clinical Best
                 Practices:

                     Since the regulations do not define “reasonably foreseeable risks,
                     investigators, IRBs and oversight agencies might each interpret this
                     phrase differently. These different interpretations can lead to confusion
                     and controversy…. Inconsistent interpretations, by definition, lead to


5
 Provisional Assessment of Recent Studies on Health Effects of Particulate Matter Exposure (2006), U.S. EPA
Office of Research and Development, Washington, D.C., National Center for Environmental Assessment,
EPA/600/R-06/063.


14-P-0154                                                                                                     22
                     inconsistent protection of human research subjects, which can lead to
                     inadequate protections in some instances.6

                An NHEERL manager told us that consent forms differed because each was
                written by a different principal investigator. The manager also told us that
                NHEERL is developing new guidance for principal investigators that would help
                them harmonize the risk language in the consent forms. In our view, the lack of a
                definition of “reasonably foreseeable risks” in the EPA’s guidance for conducting
                human subjects research contributed to this inconsistency.

Consent Forms for Diesel Exhaust Studies Did Not Include
Potential Cancer Risks From Long-Term Exposure
                The LAMARCK and DEPOZ study consent forms did not include the potential
                cancer effects of long-term exposure to diesel exhaust. The EPA classifies diesel
                exhaust as “likely to be carcinogenic to humans by inhalation” and stated in its
                2002 Health Assessment Document for Diesel Engine Exhaust7 that long-term
                inhalation exposure is likely to pose a lung cancer hazard to humans, as well as
                damage the lung in other ways depending on the length of the exposure.
                According to EPA’s 2002 Health Assessment document, the human evidence
                from occupational studies is considered strongly supportive of a finding that
                diesel exhaust exposure is causally associated with lung cancer, though the
                evidence is less than that needed to definitively conclude that diesel exhaust is
                carcinogenic to humans.

                According to an NHEERL manager, long-term cancer risks from 2-hour
                exposures would be minimal. The manager also stated that cancer risk is
                calculated considering a lifetime exposure of 40 years.

                The LAMARCK and DEPOZ protocols that went to the IRB contained language
                about the substance being carcinogenic and stated that the risk was minimal.
                Although the IRB was made aware of the principal investigator’s basis for
                considering the risk from short-term exposure to be minimal, human subjects
                were not informed of this risk in the consent forms. Table 6 shows what the
                principal investigator told the IRB about the risks from each study.




6
  Resnick, D. “What is a ‘Reasonably Foreseeable Risk’? The Support Study Controversy.” Journal of Clinical

Research Best Practices 9.8 (2013): 1-12. 

7
  U.S. EPA Health Assessment Document for Diesel Engine Exhaust (Final 2002). U.S. EPA Office of Research and 

Development, National Center for Environmental Assessment, Washington, D.C., EPA/600/8-90/057F.



14-P-0154                                                                                                  23
 Table 6: Principal investigator’s explanation of risk to the IRB
 Study name /
 pollutants      Statement of risk provided to the IRB in the EPA’s study application
 LAMARCK         “Diesel exhaust particles contain some probable carcinogenic polycyclic aromatic hydrocarbons,
                 which in high enough concentrations and/or with repeated exposures may induce tumors. Diesel
 (Diesel         exhaust also contains aldehydes, some of which are possibly carcinogenic in high enough dose
 exhaust and     and with long enough exposure. However, the exposure concentrations to be used in this protocol
 ozone)          are minimal. Overall, it appears that at the low DEP [diesel exhaust particle] concentration to be
                 given one time for the exposure in this study, the risk of cancer, if it exists at all, is extremely low
                 and certainly no more than what one would experience if one were to visit for a few days a
                 particulate-polluted city in the US [United States] such as Los Angeles or New York City.” (2009)
                 “DE [diesel exhaust] particles contain some probable carcinogenic polycyclic aromatic
 DEPOZ           hydrocarbons and other components, which in high enough concentrations and/or with repeated
                 exposures may induce tumors. Diesel exhaust also contains aldehydes, some of which are
 (Diesel         possibly carcinogenic in high enough dose and with long enough exposure. However, the
 exhaust and     exposure time and concentrations to be used in this protocol are minimal relative to the durations
 ozone)          required to induce lung cancer. Overall, there are no known long-term health risks in healthy
                 individuals acutely exposed to DE at the PM concentrations given in this study.” (2009)
 Source: DEPOZ and LAMARCK study applications to the IRB.

                According to a risk analysis conducted for another diesel exhaust study in 1999,
                the long-term cancer risk for an individual exposed to 20 or 100 micrograms per
                cubic meter of diesel exhaust for 2 hours was estimated to be in the range of 1 in
                1 billion. The study subjects in LAMARCK and DEPOZ were exposed to levels
                that ranged from about 250 to 320 micrograms per cubic meter. The DEPOZ
                principal investigator estimated the risk to be about 3 in 1 billion because the
                exposure was three times higher.

                An August 2013 article in the Journal of Clinical Best Practices states that “most
                people would want to know whether a medical procedure involves a risk of death,
                even if the chance of dying is very small.” One study subject that we interviewed
                stated that it would have been useful to have had information about known long-
                term effects of exposure to diesel exhaust. In our view, the EPA should inform
                study subjects of the potential long-term cancer risk of any pollutant to which it
                exposes human subjects so that study subjects can make the most informed
                decision possible about whether to participate in a study.

Conclusions
                The EPA obtained informed consent from the 81 study subjects that participated
                in the five studies in 2010 and 2011 as required by 40 CFR 26.116. However, the
                EPA inconsistently addressed pollutant risk in its consent forms. Only two of the
                five studies’ consent forms included the risk of death from exposure to high levels
                of selected air pollutants such as PM and diesel exhaust, and only one study’s
                consent form included the upper limits of exposure levels. Because EPA’s
                regulations do not define “reasonably foreseeable risks,” EPA investigators, the
                IRB and the HSRRO must define the term using their professional judgment,
                which leads to inconsistencies in addressing risks in the study consent forms.
                Such inconsistencies could lead to inconsistent protection of human subjects. The
                EPA needs to develop guidance to help ensure more consistent interpretation of



14-P-0154                                                                                                             24
            reasonably foreseeable risks. Furthermore, the EPA should provide the study
            subjects with a summary of the EPA assessments about the short- and long-term
            effects of the pollutants to which human study subjects will be exposed.

            The EPA’s diesel exhaust studies did not include language about the long-term
            cancer risks of diesel exhaust. The NHEERL manager explained that the cancer
            risk from diesel exhaust was not relevant to the 2-hour exposures included in the
            LAMARCK study. However, evidence suggests that at least some human study
            subjects would like to know if a study involves risk of death, even if the risk is
            very small. In the future, the EPA should include the long-term risk of cancer to
            potential subjects in its consent forms so study subjects can make the most
            informed decision about whether to participate in a study.

Recommendations
            We recommend that the Assistant Administrator for Research and Development:

               5. 	 Revise NHEERL Human Research Guidance to include a definition for
                    “reasonably foreseeable risks” including illustrative examples of the types
                    of information that should be included in the consent forms.

               6. 	 Revise NHEERL Human Research Guidance to include procedures for
                    ensuring that human subjects research consent forms consistently present
                    the risks of the pollutants to which human subjects are exposed, including
                    a summary of EPA assessments of short-term and long-term health effects
                    and the upper pollutant concentration level for the pollutant to which the
                    human subjects will be exposed.

               7. 	 Include in its consent forms any known or likely carcinogenic effects of
                    pollutants that the EPA uses in human exposure studies, based on EPA,
                    other federal health agency, or other organization’s (as appropriate)
                    assessment of such risks. If EPA uses the work of non-federal entities, the
                    agency should document the basis for using non-federal information as
                    opposed to the assessments of federal health agencies.

Agency Comments and OIG Evaluation
 
            The agency concurred with all recommendations in Chapter 3 and provided
            acceptable planned corrective actions and completion dates for the
            recommendations. Recommendations 5, 6, and 7 are resolved and open with
            corrective actions ongoing. Appendix B contains the agency’s response to our
            draft report. Appendix C contains our detailed evaluation of that response.




14-P-0154                                                                                    25
                                 Chapter 4

      Improvements Needed in EPA Guidance to 

    Address Adverse Event Definitions, Reporting 

  Timeframes and Clinical Follow-Up Responsibilities 

            The EPA addressed six adverse events in the five CAPS and diesel exhaust
            studies conducted in 2010 and 2011 by reporting them to the IRB and providing
            clinical follow-up after the events. The EPA’s clinical follow-up for the six
            adverse events ranged from 1 day to 3 months after the event and included phone
            calls and emails by the EPA nurses. While the EPA’s clinical follow-up appeared
            to be reasonable, the EPA’s policies and guidance do not establish the EPA’s
            clinical follow-up responsibilities. In our view, the EPA should revise its
            guidance to establish the agency’s clinical follow-up responsibilities after an
            adverse event.

            According to ORD managers, NHEERL is required to use the latest UNC-IRB
            standard operating procedures (SOPs) adverse event definitions and reporting
            timeframes to respond to adverse events. For the five studies we reviewed, this
            would have been the 2009 UNC-IRB SOPs. However, NHEERL’s policies and
            guidance do not state that NHEERL has adopted UNC-IRB SOP’s adverse event
            definitions and reporting timeframes. NHEERL guidance is outdated, with
            definitions for adverse events and reporting timeframes that are the same as the
            2003 UNC-IRB SOP definitions and reporting timeframes. When evaluated
            against the NHEERL guidance reporting timeframes, the EPA reported two of the
            six adverse events to the IRB later than required. In addition, when evaluated
            against the EPA’s NHEERL guidance definition for an adverse event, the EPA
            did not report two study events to the IRB in which both subjects experienced
            cardiac arrhythmias. In both instances, the subjects were not allowed to continue
            participating in the study and were advised to consult their physicians. The EPA
            should update its NHEERL guidance to make it clear what adverse event
            definitions and reporting requirements they should use when managing their
            human subject research studies to ensure the consistent protection of study
            subjects.

Clinical Follow-Up Provided but Guidance and Study Protocols Lack 

Clinical Follow-Up Responsibilities 

            The EPA identified six adverse events during three studies (DEPOZ,
            OMEGACON, and XCON) conducted in 2010 and 2011 and reported them to the
            IRB. The EPA did not identify any adverse events in two studies, KINGCON and
            LAMARCK. Table 7 summarizes each of the six adverse events.




14-P-0154                                                                                  26
Table 7: Summary of the six adverse events in 2010 and 2011
Study and date
(month/year) of                                         Actions taken after adverse event was reported including
 adverse event       Description of adverse event                    revising the study’s consent forms
OMEGACON,            Subject developed a migraine       The EPA revised the consent forms to exclude future human
May 2010             during exposure.                   subjects with a history of migraine headaches from
                                                        participating in the study.
OMEGACON,            Subject had cardiac                Not applicable because the IRB did not consider the adverse
                                   a
May 2010             arrhythmia after exposure to       event to be reportable.
                     clean air.
OMEGACON,            Subject had cardiac arrhythmia     Not applicable because the IRB did not consider the adverse
June 2010            after exposure to clean air.       event to be reportable.
DEPOZ,               Subject experienced                None. DEPOZ consent form already addressed the potential
September 2010       decreased lung function after      risk of airway obstruction.
                     ozone exposures.
XCON,                Subject experienced                NHEERL management met and determined that no screening
October 2010         tachycardiab and atrial            could have feasibly been done to have predicted this issue.
                                 c
                     fibrillation while exposed to
                     ambient air pollution particles.   The XCON consent form already warned study participants
                     The subject was later              not to participate if they had cardiovascular disease including
                     hospitalized overnight for         coronary artery disease, heart failure, or rhythm disturbances.
                     observation.
DEPOZ,               Subject developed a persistent     NHEERL established a corrective action plan where subjects
April 2011           cough.                             who presented a cough within the first 15 minutes of
                                                        exposure would be removed from the chamber.

                                                        DEPOZ consent form already stated that exposure to ozone
                                                        could cause a cough.
Source: NHEERL’s information on human subjects who experienced adverse events.
a
  An arrhythmia is a problem with the rate or rhythm of the heartbeat. During an arrhythmia, the heart can beat too
fast, too slow, or with an irregular rhythm.
b
  Tachycardia is a faster than normal heart rate. A healthy adult heart normally beats 60 to 100 times a minute when a
person is at rest. If you have tachycardia, the heart rate in the upper chambers or lower chambers of the heart, or
both, are increased significantly.
c
  Atrial fibrillation is an irregular and often rapid heart rate that commonly causes poor blood flow to the body. During
atrial fibrillation, the heart's two upper chambers (the atria) beat chaotically and irregularly—out of coordination with
the two lower chambers (the ventricles) of the heart.


                  After each of the six EPA-identified adverse events took place, agency medical
                  staff provided clinical follow-up, which we define as the necessary monitoring of
                  the condition of a human research subject who experienced an adverse event to
                  ensure their well being. The EPA’s follow-up included subsequent
                  communications with the subject regarding their health. The length of clinical
                  follow-up varied from 1 day to 3 months. The EPA doctors and/or nurses
                  provided the follow-up care. After several events, clinical follow-up included
                  advising the study subject to make an appointment with their private physician or
                  another specialist for medical care. Table 8 describes the clinical follow-up the
                  EPA medical staff provided for each of the six EPA-identified adverse events.




14-P-0154                                                                                                             27
Table 8: Clinical follow-up provided by the EPA for the six adverse events in 2010 and 2011
Study and timeframes
  of adverse event                                  Clinical follow-up provided by the EPA
OMEGACON,                  Two days of follow-up including (1) giving the subject medicine for pain relief and a visit
May 2010                   by NHEERL’s on duty physician on the first day and (2) a follow-up conversation with the
                           principal investigator on the second day.
                                                                                                         a
OMEGACON,                  Two days of follow-up including review of subject’s holter monitor recording by one
May 2010                   doctor and two nurses. On the second day, the EPA medical staff advised the study
                           subject to see a private physician because the principal investigator believed that the
                           study subject had an underlying medical condition. The EPA provided the study subject
                           with a copy of medical test results.
OMEGACON,                  One day of follow-up plus an email from an NHEERL nurse three weeks afterwards.
June 2010                  During the follow-up day, an NHEERL doctor and the principal investigator reviewed the
                           study subject’s holter monitor recording, and the NHEERL doctor reviewed the study
                           subject’s electrocardiogram. EPA medical staff advised the study subject to see a health
                           care provider and a private cardiologist.
DEPOZ,                     Follow-up occurred the day following the event. Follow-up included assessments by an
September 2010             EPA doctor and nurse. The study subject continued to participate in the study.
XCON,                      Follow-up occurred over a span of seven days including (1) a nurse consultation with two
October 2010               NHEERL physicians; (2) review of holter monitor recordings; (3) observation of study
                           subject; (4) study subject transfer to the emergency room with overnight monitoring at
                           the UNC hospital; and (5) phone calls to the study subject by an NHEERL nurse.
DEPOZ,                     Follow-up provided for 3 months after event including (1) being seen by an NHEERL
April 2011                 physician; (2) receiving medication for 1 week; (3) emails and phone calls by an
                           NHEERL nurse; and (4) scheduling an appointment for the study subject at the UNC
                           Ambulatory Care Center Pulmonary Clinic.
Source: NHEERL’s information on human subjects who experienced adverse events.
a
 A holter monitor is a type of portable electrocardiogram which keeps a continuous record of the heart rhythm,
typically over a 24-hour period.

                  The EPA’s consent forms for the five studies addressed what happens if an injury
                  occurs to a study subject and informed the subjects that a physician would be
                  available during the exposure session, if needed.




                  The console the EPA uses to observe and monitor human study
                  subjects during exposures (foreground) and a human subjects
                  air pollution test chamber (background). (EPA OIG photo)



14-P-0154                                                                                                           28
            However, the EPA’s policies, guidance, the five study protocols and consent forms
            do not include the EPA’s clinical follow-up responsibilities. While the follow-up
            NHEERL provided after each adverse event appeared reasonable, we could not
            compare it to any existing EPA criteria. ORD managers said that their clinical
            follow-up responsibilities do not include serving as a study subject’s health care
            provider and they are not aware of circumstances under which they would be
            allowed to serve as a health care provider. We interviewed three study subjects who
            experienced adverse events. Two study subjects commented that the EPA
            investigators handled the adverse events in a professional manner. One subject
            suggested that the EPA follow up with study subjects who experience an adverse
            event with an inquiry letter about 2 to 3 months after the event to determine how
            they are doing. In our view, clinical follow-up is an ethical responsibility and the
            EPA should revise its guidance to establish the agency’s clinical follow-up
            responsibilities for adverse events to ensure principal investigators and study team
            members understand their responsibilities. Once established, including a summary
            of the EPA’s clinical follow-up responsibilities in the consent forms would better
            ensure that human subjects understand the EPA’s clinical follow-up responsibilities
            prior to the occurrence of an adverse event.

NHEERL Guidance Does Not Reflect the Adverse Event Definitions
and the Reporting Timeframes the Agency Reports Using
            According to ORD managers, NHEERL uses the latest UNC-IRB SOP adverse
            event definitions and reporting timeframes to respond to adverse events. The
            Director of OHRE for UNC confirmed that it is the UNC-IRB’s expectation that
            the EPA follows the UNC-IRB SOP. However, this expectation is not in writing.
            For the five studies we reviewed, this would have been the 2009 UNC-IRB SOP.
            However, the NHEERL guidance does not state that the EPA adopted the UNC­
            IRB SOP definitions and reporting timeframes. Further, NHEERL’s guidance
            definitions and timeframes are out of date because it still uses the 2003 UNC-IRB
            definitions and reporting timeframes. As a result, we evaluated how the EPA
            addressed adverse events using NHEERL guidance definitions and timeframes.
            Additionally, we also evaluated the adverse events using the 2009 UNC-IRB SOP
            definitions of adverse events and reporting requirements. Appendix D summarizes
            the NHEERL guidance and 2009 UNC-IRB definitions for various types of
            adverse events and unanticipated problems. In our view, the EPA needs to update
            its NHEERL guidance to clarify the adverse event definitions and reporting
            timeframes it is using during their human research subject studies, in order to
            ensure the consistent protection of study subjects.

            Two Adverse Events Not Reported In a Timely Manner When
            Evaluated Against Outdated NHEERL Guidance

            The EPA did not report two of the six adverse events it identified in a timely
            manner when evaluated against NHEERL guidance, because NHEERL guidance
            was out of date. According to agency managers NHEERL has been following the


14-P-0154                                                                                   29
                  UNC-IRB SOP reporting requirements; however, these definitions and
                  timeframes have not been reflected in the 2010 NHEERL guidance. Table 9
                  summarizes the reporting timeframes contained in the NHEERL guidance and the
                  2009 UNC-IRB SOP.

Table 9: Reporting timeframes for adverse events and unanticipated problems
                        NHEERL guidance reporting
                      timeframes for adverse events        2009 UNC-IRB SOP reporting timeframes for adverse
Event/Problem           and unanticipated problems                  events and unanticipated problems
Serious adverse    Within 24 hours or by next working     Unanticipated problems that are serious adverse events
events             day if unanticipated; 5 working days   should be reported to the IRB within 1 week of the
                   if anticipated.                        investigator becoming aware of the event.
Adverse event      Within 10 working days if              Unanticipated problems that are adverse events should
or experience      unanticipated.                         be reported to the IRB within 2 weeks of the investigator
                                                          becoming aware of the problem. Adverse events that are
                                                          not unanticipated problems are not required to be
                                                          reported to the IRB.
Unanticipated      Within 10 working days.                Unanticipated problems that are not serious adverse
problems                                                  events should be reported to the IRB within 2 weeks of
                                                          the investigator becoming aware of the problem.
Sources: The EPA NHEERL Guidance, 2010 and UNC IRB SOP Number 19.0, 2009.

                  In the XCON October 2010 adverse event, the study subject was hospitalized
                  which, according to NHEERL’s guidance, would be defined as a serious adverse
                  event. The principal investigator reported the unanticipated adverse event to the
                  IRB 3 working days after the event. Serious and unanticipated adverse events
                  should be reported within 24 hours according to NHEERL guidance. An
                  NHEERL manager explained to us that the event was considered unanticipated
                  but not a serious adverse event. The EPA took the study subject to the hospital for
                  overnight observation, but she was not admitted. The manager interpreted the
                  NHEERL guidance as stating that a serious adverse event would require a study
                  subject to be hospitalized for a prolonged period of time.

                  The EPA also did not report the DEPOZ April 2011 adverse event to the IRB in a
                  timely manner according to 2010 NHEERL guidance. The study subject reported
                  experiencing a persistent cough after an ozone exposure session. This adverse
                  event was not serious but was unanticipated. The EPA reported the event to the
                  IRB after 11 working days when the event should have been reported within 10
                  working days according to NHEERL guidance. Adverse events must be reported
                  in a timely manner so that the IRB can expeditiously determine if it needs to take
                  any action concerning a study, such as requiring the EPA to revise the study
                  protocols or the consent forms.

                  Only one of the two events (DEPOZ, April 2011) would have been reported as
                  untimely when evaluated against the 2009 UNC-IRB SOP reporting timeframes.
                  According to the UNC-IRB SOP, unanticipated problems that are adverse events
                  should be reported to the IRB within 2 weeks of the investigator becoming aware
                  of the event; as noted above, the agency reported this adverse event after
                  11 working days, or 15 calendar days.



14-P-0154                                                                                                        30
                 The other event (XCON, October 2010) was reported after 3 working days, or
                 5 calendar days. This event would not have been classified as a serious adverse
                 event using the UNC-IRB definitions because the study subject did not require
                 inpatient hospitalization. The NHEERL guidance defines a serious adverse event
                 as one in which the study subject “requires hospitalization.”

                 Two Adverse Events Not Reported to the IRB When Evaluated
                 Against Outdated NHEERL Guidance

                 Despite meeting the NHEERL guidance definition for an adverse event, the EPA
                 did not report two study events to the IRB in which both subjects experienced
                 cardiac arrhythmias. These events met the 2010 NHEERL guidance definition for
                 an adverse event, which is an event that is “undesirable and unintended, though
                 not necessarily unanticipated, [with] injury or physical or emotional consequence
                 to a human subject.” However, when evaluated against the 2009 UNC-IRB SOP
                 definitions, neither of these adverse events would have been reported because
                 they did not meet the criteria. In both instances, the subjects were not allowed to
                 continue participating in the study and were advised to consult their
                 physicians. Table 10 describes the two unreported events and the EPA’s
                 explanations for not reporting them.
Table 10: 2010 and 2011 events not reported as adverse events
Study and date
 (month/year)
   of event            Description of event         The EPA explanation for not reporting as adverse event
DEPOZ,            Study subject had ventricular    According to an NHEERL manager, the heart irregularity was
November 2010     ectopic heart beats during       benign. However, because of this irregularity, the EPA could
                  holter monitoring on the         monitor the heartbeat, but the results could not be interpreted,
                  follow-up day of the study.      which was one of the data points being measured in the study.
                  The EPA medical staff told       Therefore, the individual was disqualified from further
                  the study subject to follow-up   participation in the study.
                  with a physician.
XCON,             Within seconds of the PM         After the study subject was removed from the exposure
February 2011     exposure, the study subject      chamber, the study subject told two EPA physicians about
                  had an increase in heart rate    experiences with a “racing heart” although the study subject
                  that lasted several seconds,     had responded during a screening visit that heart rate seems
                  as well as variable blood        normal and that there were no episodes of very rapid heart
                  pressure readings over the       rate which starts and stops suddenly. NHEERL staff
                  next half an hour. The EPA       determined that the event did not relate to the research since
                  medical staff told the study     the study subject was only exposed to CAPS for a short time.
                  subject to follow-up with a      The EPA did not inform the IRB at the time of the event, but
                  physician.                       the principal investigator sent the IRB a memo in October
                                                   2012 (about 1.5 years later) explaining why the incident was
                                                   not reported to the IRB. In an email dated October 15, 2012,
                                                   the Director of the Office of Research Ethics for UNC
                                                   concurred that this incident did not rise to the level of a
                                                   reportable event.
Source: NHEERL medical notes on study subject participants.

                 During the OMEGACON study, the EPA reported two adverse events to the IRB
                 (May 2010 and June 2010 in table 7) that were similar to the DEPOZ event
                 (November 2010 in table 10). For the XCON event (February 2011 in table 10),



14-P-0154                                                                                                             31
            the study’s principal investigator stated that the incident was not reported because
            the event was likely not related to the research.

            When evaluated against the 2009 UNC-IRB SOP definitions, neither of these
            adverse events would have been reported because they did not meet the criteria,
            which is that the event must be both unanticipated in nature and related to the
            research. The two events were likely not related to the research. An EPA study
            team member discovered the heart rhythm problems of one study subject (DEPOZ,
            November 2010) the day after the pollutant exposure session on a testing follow-up
            day. The other study subject (XCON, February 2011) was only exposed to CAPS
            for a short time and informed the EPA study team after the short exposure about
            having racing heart symptoms prior to the study.

Other Matters
            The congressional request also asked that we determine whether the HSRB and
            the HSRRO were notified of adverse events and if consent forms were revised as
            needed after an adverse event.

            HSRB and HSRRO Notification Not Required After an Adverse Event

            Neither the Common Rule nor the EPA’s policy and guidance require the HSRB
            or HSRRO to be notified when adverse events occur. The EPA did not notify the
            HSRB about any of the five studies’ adverse events. Although not required, the
            EPA notified the HSRRO about one adverse event (XCON, October 2010) where
            the subject was sent to the hospital.

            One Study’s Consent Forms Revised After an Adverse Event

            The EPA revised one study’s consent form due to an adverse event. During the
            OMEGACON study one human study subject developed a migraine during an
            exposure session (OMEGACON, May 2010). The EPA decided to revise the
            OMEGACON study’s consent form to exclude potential human subjects with a
            history of migraines from participating in the study. The EPA did not revise the
            consent forms for the other adverse events. See explanations in table 7. We did
            not find that the consent forms for any of the other studies needed to be revised
            based on the identified adverse events.

Conclusions
            The EPA needs to update its NHEERL guidance to clarify which adverse event
            definitions and reporting timeframes it is using. It is important to do so to provide
            consistent protection to the study subjects participating in NHEERL’s human
            subjects research studies. Principal investigators must understand what adverse
            definitions and reporting requirements they should use so they can identify and
            report adverse events in a timely manner.


14-P-0154                                                                                       32
            Although the EPA’s policies and guidance do not include the EPA’s clinical
            follow-up responsibilities, agency medical staff provided clinical follow-up to
            study subjects after each of the six EPA-identified adverse events. Establishing
            guidance for the agency’s clinical follow-up responsibilities after an adverse event
            would enhance the protection of human subjects who experience adverse events.
            The EPA should revise its guidance to address this key area. The EPA should also
            include a summary of its clinical follow-up responsibilities in its consent forms so
            that human subjects understand the EPA’s clinical follow-up responsibilities prior
            to the occurrence of an adverse event.

Recommendation
            We recommend that the Assistant Administrator for Research and Development:

               8. Revise the EPA’s NHEERL Human Research Guidance to:

                   a.   Clearly state that NHEERL has adopted UNC-IRB SOP definitions and
                        reporting timeframes for adverse events and unanticipated problems
                        and will continue to follow the most updated version of the SOPs.

                   b.   Establish the EPA’s clinical follow-up responsibilities after adverse
                        and serious adverse events, including general timeframes for clinical
                        follow-up.

                   c.   Require principal investigators to include a summary of the agency’s
                        clinical follow-up responsibilities in each study’s protocol and
                        consent forms. 
 
Agency Comments and OIG Evaluation
                   The agency concurred with all recommendations in Chapter 4 and
                   provided acceptable planned corrective actions and completion dates for
                   the recommendations. Recommendations 8(a), 8(b) and 8(c) are resolved
                   and open with corrective actions ongoing. Appendix B contains the
                   agency’s response to our draft report. Appendix C contains our detailed
                   evaluation of that response.




14-P-0154                                                                                    33
                             Status of Recommendations and
                               Potential Monetary Benefits
                                                                                                                           POTENTIAL MONETARY
                                                RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                               Planned
 Rec.   Page                                                                                                  Completion   Claimed    Agreed-To
 No.     No.                          Subject                             Status1      Action Official           Date      Amount      Amount

  1      17    Revise the NHEERL Human Research Guidance to                 O       Assistant Administrator    9/30/14
               include:                                                               for Research and
                 a. An EPA internal review and approval process                          Development
                    for significant study modifications which
                    include a definition and illustrative examples of
                    significant study modifications. The review and
                    approval process should indicate when
                    significant study modifications should be sent
                    to the HSRRO for review and approval.
                 b. A revised flowchart of the protocol review
                    process listing the HSRRO as an independent
                    reviewer and not part of the NHEERL-level
                    review process and eliminating the DHRO
                    review.

  2      17    Implement a procedure for documenting that human             C       Assistant Administrator    10/31/13
               subjects research study investigators have met the                     for Research and
               requirement for continuing annual ethics education.                       Development

  3      17    Revise the NHEERL Human Research Policy to                   O       Assistant Administrator    9/30/14
               eliminate the DHRO position and transfer the duties                    for Research and
               of the DHRO to the HRPO Director.                                         Development

  4      18    Develop management controls to ensure NHEERL                 O       Assistant Administrator    9/30/14
               management reviews and approvals are properly                          for Research and
               documented and follow NHEERL guidance.                                    Development

  5      25    Revise NHEERL Human Research Guidance to                     O       Assistant Administrator    9/30/14
               include a definition for “reasonably foreseeable risks”                for Research and
               including illustrative examples of the types of                           Development
               information that should be included in the consent
               forms.

  6      25    Revise NHEERL Human Research Guidance to                     O       Assistant Administrator    9/30/14
               include procedures for ensuring that human subjects                    for Research and
               research consent forms consistently present the                           Development
               risks of the pollutants to which human subjects are
               exposed, including a summary of EPA assessments
               of short-term and long-term health effects and the
               upper pollutant concentration level for the pollutant to
               which the subject will be exposed.

  7      25    Include in its consent forms any known or likely             O       Assistant Administrator    6/30/14
               carcinogenic effects of pollutants that the EPA uses                   for Research and
               in human exposure studies, based on EPA, other                            Development
               federal health agency, or other organization’s (as
               appropriate) assessment of such risks. If EPA uses
               the work of non-federal entities, the agency should
               document the basis for using non-federal information
               as opposed to the assessments of federal health
               agencies.




14-P-0154                                                                                                                                    34
                                                                                                                          POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                        BENEFITS (in $000s)

                                                                                                              Planned
    Rec.    Page                                                                                             Completion   Claimed    Agreed-To
    No.      No.                          Subject                        Status1      Action Official           Date      Amount      Amount

     8       33     Revise the EPA’s NHEERL Human Research                  O      Assistant Administrator    9/30/14
                    Guidance to:                                                     for Research and
                      a. Clearly state that NHEERL has adopted UNC-                     Development
                         IRB SOP definitions and reporting timeframes
                         for adverse events and unanticipated
                         problems and will continue to follow the most
                         updated version of the SOPs.
                      b. Establish the EPA’s clinical follow-up
                         responsibilities after adverse and serious
                         adverse events, including general timeframes
                         for clinical follow-up.
                      c. Require principal investigators to include a
                         summary of the agency’s clinical follow-up
                         responsibilities in each study’s protocol and
                         consent forms.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




14-P-0154                                                                                                                                   35
                                                                                                    Appendix A

             EPA Air Quality Index for Particle Pollution
                 (with concentration levels added)

                                                                                             PM2.5 concentration
 AQI level         Risk level                        Description of risk
                                                                                                   (range)
    0-50              Good                                  None                                0 to 12 µg/m3
                    Moderate        Unusually sensitive people should consider reducing
  51-100                                                                                      12.1 to 35.4 µg/m3
                                               prolonged or heavy exertion.
                  Unhealthy for
                                     People with respiratory or heart disease, the elderly
  101-150           sensitive                                                                 35.5 to 55.4 µg/m3
                                        and children should limit prolonged exertion.
                     groups
                   Unhealthy         People with respiratory or heart disease, the elderly
  151-200                              and children should avoid prolonged exertion.         55.5 to 150.4 µg/m3
                                       Everyone else should limit prolonged exertion.
                 Very unhealthy      People with respiratory or heart disease, the elderly
 201- 300                              and children should avoid any outdoor activity.       150.5 to 250.4 µg/m3
                                      Everyone else should avoid prolonged exertion.
                   Hazardous        Everyone should avoid any outdoor exertion. People       250.5 to 500.4 µg/m3
  301-500                             with respiratory or heart disease, the elderly and
                                              children should remain indoors.
Source: EPA’s Air Quality website (http://www.airnow.gov/?action=aqibasics.aqi and
http://www.airnow.gov/index.cfm?action=resources.aqi_conc_calc).
Note: The Air Quality Index range for PM2.5 is 0 to 500.




14-P-0154                                                                                                           36
                                                                                               Appendix B

                   Agency Comments on Draft Report
 [This appendix includes OIG-created footnotes regarding subsequent communications with the agency after their
            response was received concerning their planned corrective actions and completion dates.]

                                            February 18, 2014

MEMORANDUM

SUBJECT:	 Response to the Office of Inspector General (OIG) Draft Report titled,
          Improvements in Policies and Guidance Could Better Ensure Protection of
          Human Study Subjects, dated January 17, 2014

FROM: 	         Lek G. Kadeli, Acting Assistant Administrator

TO:    	        Arthur A. Elkins, Jr., Inspector General
                Office of Inspector General

Thank you for the opportunity to respond to the OIG’s draft report, Improvements in Policies and
Guidance Could Better Ensure Protection of Human Study Subjects, (Project No.OPE-FY13-0001).

The Office of Research and Development (ORD) appreciates the OIG’s recognition that the EPA
followed all applicable regulations governing our human subjects research program. This
acknowledgement is based on the OIG’s findings, which demonstrated that EPA obtained all
required approvals before initiating a study, obtained proper informed consents from research
participants, complied with its clinical follow-up responsibilities for all research participants, and
responded appropriately to adverse events, according to the latest guidelines of the University of
North Carolina Institutional Review Board (the board of record for EPA research taking place in
Chapel Hill).

EPA policy decisions must be based on sound science. To that end, ORD’s human subjects
research program generates critical and objective scientific data to inform the development of
policies that may reduce the effects of air pollutants on human health.
While there is a critical need for studies involving human subjects, ORD also understands that
the research must be conducted in an ethical and vigilant manner. As documented in the OIG’s
report, EPA has established guidelines for conducting this type of research that are far in excess
of what is normally required by universities, industry, and other government agencies conducting
human studies research. For example, ORD’s research program can sometimes undergo over
eight separate levels of approvals before a research study can be initiated, which may include
statistical and medical review of the study, IRB review, Quality Assurance Officer review, and
review by at least three other officials, whose approvals must be documented before a study can
begin.

In conclusion, ORD appreciates the OIG’s efforts and thorough evaluation of our research
program. ORD concurs with the OIG’s recommendations, which are primarily based on


14-P-0154                                                                                                    37
enhancing our internal policies and guidance to further improve the EPA’s human studies
program.

Provided in the table below is ORD’s response to the OIG’s recommendations.

Rec.        Recommendation              Suggested          Corrective Action        Estimated
No.                                    Revisions to                                 Completion
                                    Recommendation(s)                                 Date
                                      (If applicable)
1.     Revise the NHEERL                                A job offer has been        4th Quarter
       guidance to include:                             made to fill the HRPO       FY 2014
       An EPA internal review                           position. Updating the      (assuming
       and approval process for                         NHEERL guidance             the HRPO
       significant study                                policy will be the first    position is
       modifications which                              task assigned to the        filled by the
       include a definition and                         HRPO. Included in the       Spring of
       illustrative examples of                         updated guidance will       2014).
       significant study                                be a definition of what
       modifications. The review                        constitutes a significant
       and approval process                             study modification and
       should indicate when                             who must review and
       significant study                                approved such
       modifications should be                          modifications. The
       sent to the HSRRO for                            flowchart will also be
       approval.                                        revised as suggested by
       A revised flowchart of the                       the IG.
       protocol review process
       listing the HSRRO review
       as an independent
       reviewer and not part of
       the NHEERL-level review
       process and eliminating
       the DHRO review.

                          See Appendix C, Note 1, for OIG Response


2.     Implement a procedure for                        A procedure was             Completed
       documenting that human                           implemented in the fall
       subjects research study                          of 2013.
       investigators have met the
       requirement for
       continuing annual ethics
       education.

                          See Appendix C, Note 2, for OIG Response


14-P-0154                                                                                      38
Rec.    Recommendation                    Suggested         Corrective Action                           Estimated
No.                                       Revisions to                                                  Completion
                                          Recommendation(s)                                             Date
                                          (If applicable)
3.      Revise the NHEERL                                   This will be done as part                   4th Quarter
        policy to eliminate the                             of the HRPO revision of                     FY 2014.
        DHRO position and                                   the NHEERL
        transfer the duties of the                          guidelines.
        DHRO to the HRPO
        Director.

                                See Appendix C, Note 3, for OIG Response
4.      Develop management                                            NHEERL guidelines                 4th Quarter
        controls to ensure                                            will be modified to               FY 2014.
        NHEERL management                                             specifically indicate the
        reviews and approvals are                                     order in which reviews
        properly documented and                                       and approvals should be
        follow NHEERL                                                 obtained.
        guidance.



                                See Appendix C, Note 4, for OIG Response


5.      Revise NHEERL                     Revise NHEERL               NHEERL guidelines                 4th Quarter
        guidance to include a             guidance to include         will be modified to               FY 2014.
        definition for “reasonably        the federal definition      include the federal
        foreseeable risks”                of “minimal risk”           definition of minimal
        including illustrative            including illustrative      risk as well as
        examples of the types of          examples of the             illustrative examples.
        information that should be        types of information
        included in the consent           that should be
        forms.                            included in the
                                          consent forms.8

                              See Appendix C, Note 5, for OIG Response




8
 In a subsequent communication, ORD agreed to implement the OIG recommendation, stating that “NHEERL 
guidelines will be modified to include a definition for “reasonably foreseeable risks” including illustrative examples 
of the types of information that should be included in the consent form.”  The Agency also provided corrective
actions and milestones for Recommendation 5.


14-P-0154                                                                                                            39
Rec    Recommendation                Suggested Revisions to          Corrective Action               Estimated
No.                                  Recommendation(s) (If                                           Completion
                                     applicable)                                                     Date
6.     Revise NHEERL                                                 The HRPO will enhance           4th Quarter FY
       guidance to include                                           what is currently in place      2014.
       procedures for ensuring                                       regarding language about
       that human subjects                                           risks of pollutants to which
       research consent forms                                        subjects are exposed and
       consistently present the                                      will ensure this language be
       risks of the pollutants to                                    placed as appropriate in
       which human subjects                                          consent forms. Interim
       are exposed, including a                                      steps have already been
       summary of EPA                                                taken to ensure that the
       assessments of short-term                                     communication of risk from
       and long-term health                                          studies are consistently
       effects and the upper                                         presented throughout the
       pollutant concentration                                       consent form process.
       level for the pollutant to
       which the subject will be
       exposed.

                                    See Appendix C, Note 6, for OIG Response
7.     Include in its consent       While the current consent      This recommendation will          2nd
       forms any known              forms do present               be implemented                    Quarter10
       carcinogenic effects of      information regarding the      immediately.                      FY 2014.
       pollutants that the EPA      present risk of pollutants the
       uses in human exposure       EPA uses in human
       studies.                     exposure studies, additional
                                    information will be included
                                    for any known carcinogenic
                                    effects of the pollutants (as
                                    reported by IARC, National
                                    Toxicology Program’s
                                    Report on Carcinogens, or
                                    by the EPA IRIS Program).
                                    In general, the potential for
                                    carcinogenic effects is not
                                    anticipated to be greater than
                                    minimal.9

                                    See Appendix C, Note 7, for OIG Response


9
 At the exit conference, the OIG and ORD amended Recommendation 7 to include not only pollutants with known
carcinogenic effects, but also those pollutants with likely carcinogenic effects. ORD proposed that we use EPA’s
two highest cancer risk guidelines. According to EPA’s 2005 Cancer Guidelines, these are “Carcinogenic to
Humans” and “Likely to be Carcinogenic to Humans.” In a subsequent communication, ORD agreed to the new
language and confirmed that the corrective actions for Recommendation 7 would remain the same.
10
   In a subsequent communication, the agency revised the corrective action date to June 30, 2014.


14-P-0154                                                                                                      40
Rec.     Recommendation               Suggested Revisions to Corrective Action                          Estimated
No.                                   Recommendation(s) (If                                             Completion
                                      applicable)                                                       Date

8.       Revise the EPA’s                                             Changes to the NHEERL 4th Quarter
         NHEERL guidance to:                                          guidance document will    FY 2014.
         a. Clearly state that                                        be made to ensure that
         NHEERL has adopted                                           the NHEERL policy is
         UNC-IRB SOP                                                  always harmonized with
         definitions and                                              the latest IRB policy.
         reporting timeframes                                         The IG is aware that EPA
         for adverse events and                                       physicians are not legal
         unanticipated                                                health care providers.
         problems and will                                            The guidelines will be
         continue to follow the                                       modified to describe
         most updated version                                         EPA’s follow-up clinical
         of the SOPs.                                                 responsibilities.
         b. Establish the EPA’s                                       EPA will discuss with the
         clinical follow-up                                           UNC IRB whether they
         responsibilities after                                       want to see a summary of
         adverse and serious                                          the Agency’s clinical
         adverse events,                                              followup responsibilities
         including general                                            included in consent
         timeframes for clinical                                      forms, and include it if
         follow-up.                                                   the IRB recommends we
         c. Require principal                                         do so.11
         investigators to
         include a summary of
         the agency’s clinical
         follow-up
         responsibilities in each
         study’s protocol and
         consent forms.




11
  In subsequent communications, ORD agreed to implement OIG recommendation 8(c), stating that “Changes to 
the NHEERL guidance document will be made to ensure that the NHEERL policy is always harmonized with the 
latest IRB policy. The NHEERL guidance document will be updated to specify EPA’s follow‐up clinical 
responsibilities,” and clarified that a summary of these responsibilities would be included in study protocols and 
consent forms. The agency also provided corrective actions and milestones for Recommendation 8(c).


14-P-0154                                                                                                             41
                                                                                              Appendix C

                  OIG Evaluation of Agency Comments
We appreciate the agency’s comments and its recognition of our efforts to understand and
thoroughly evaluate its human research studies program. Our evaluation of the agency’s
comments on our draft report recommendations is below. We also received a number of
technical comments from the agency and made changes to the final report as appropriate.

Note 1- Response to Recommendations 1(a) and 1(b):

The agency concurred with our recommendation to revise the NHEERL guidance to include an
EPA internal review and approval process for significant study modifications and to revise the
flowchart to accurately portray the protocol review process. The agency provided a corrective
action plan stating that a job offer has been made to fill the HRPO position, and that updating the
NHEERL guidance to address the OIG’s recommendation will be the first task assigned to the
HRPO. This includes developing guidance on what constitutes a significant study modification,
who must review and approve such modifications, and correcting the flowchart. The agency
explained that the NHEERL guidance will be updated by September 30, 2014, unless the vacant
HRPO position remains unfilled. We accept the agency’s planned corrective actions in response
to this recommendation. The recommendation is resolved and open pending the agency’s
completion of the agreed-to corrective actions.12

Note 2- Response to Recommendation 2:

The agency concurred with our recommendation to implement a procedure for documenting that
investigators have met the requirement for continuing annual ethics education and began
implementing such a procedure in the fall of 2013. The agency provided evidence of the
corrective action taken. We accept the agency’s corrective action in response to this
recommendation. This recommendation is closed and no further action is required.

Note 3- Response to Recommendation 3:

The agency concurred with our recommendation to revise the NHEERL policy to eliminate the
DHRO position and transfer those duties to the HRPO Director. The agency provided a
corrective action plan stating that the transfer of these duties to the HRPO will be done as part of
the HRPO revision of the NHEERL guidelines. The agency said this corrective action would be
completed by September 30, 2014. We accept the agency’s planned corrective action in response
to this recommendation. The recommendation is resolved and open pending the agency’s
completion of the agreed-to corrective actions.

Note 4- Response to Recommendation 4:

The agency concurred with our recommendation to develop management controls to ensure
NHEERL management reviews and approvals are properly documented. The agency provided a

12
  Subsequent to this action plan, NHEERL management provided us with clarification about the responsible
party/office for recommendations 1, 3, 4, 5, 6, 7 and 8.


14-P-0154                                                                                                  42
corrective action plan stating that the NHEERL guidelines will be modified to specifically
indicate the order in which reviews and approvals should be obtained by September 30, 2014.
We accept the agency’s planned corrective action in response to this recommendation. The
recommendation is resolved and open pending the agency’s completion of the agreed-to
corrective actions.

Note 5- Response to Recommendation 5:

The agency proposed an alternative to Recommendation 5. The agency proposed that we change
our recommendation that NHEERL’s guidance include a definition for “reasonably foreseeable
risks” to recommend, instead, that the guidance include a definition of “minimal risk.” After
discussing the proposed alternative at the exit conference, NHEERL management concurred with
our recommendation to revise NHEERL guidance to include a definition for “reasonably
foreseeable risks.” In a subsequent communication, the agency stated that “NHEERL guidelines
will be modified to include a definition for “reasonably foreseeable risks” including illustrative
examples of the types of information that should be included in the consent form.” The agency
provided a corrective action plan stating that this corrective action would be completed by
September 30, 2014. We accept the agency’s planned corrective action in response to this
recommendation. The recommendation is resolved and open pending the agency’s completion of
the agreed-to corrective actions.

Note 6- Response to Recommendation 6:

The agency concurred with our recommendation to revise NHEERL guidance to include
procedures for ensuring that consent forms consistently present the risks of pollutants, including
EPA assessments of short-term and long-term health effects and the upper pollutant
concentration levels of the pollutants. The agency stated that they will “enhance what is currently
in place regarding language about risks of pollutants and that they have already taken interim
steps to ensure that the communication of risks is consistently presented through the consent
form process.” Subsequent to providing the OIG with its action plan, NHEERL management
clarified their proposed corrective actions for this recommendation. NHEERL said it would
develop language to ensure that consent forms consistently present the same risks of pollutants,
including the risks of short- and long-term health effects associated with pollutant exposure, and
the upper-pollutant concentration. We accept the agency’s planned corrective action in response
to this recommendation, as clarified in subsequent communications with NHEERL management.
The recommendation is resolved and open pending the agency’s completion of the agreed-to
corrective actions.

Note 7- Response to Recommendation 7:

The agency concurred with our recommendation to include in its consent forms any known
carcinogenic effects of pollutants, and suggested that the recommendation include specific health
institutions to ensure the credibility of a finding of carcinogenic effects. The agency also
recommended that the International Agency for Research on Cancer, an associated body of the
World Health Organization, be included in the list of agencies. We agree with the agency’s
suggestion to include other federal health agencies, and acknowledge the agency’s desire to use
other organizations such as the IARC, as appropriate. We have revised the recommendation to


14-P-0154                                                                                       43
specify EPA and other federal health agencies,13 as appropriate, and to recommend the agency
document the basis for using non-federal information as opposed to the assessments of federal
health agencies. During the exit conference, the OIG and ORD also agreed to amend
recommendation 7 to include not only pollutants with known carcinogenic effects, but also
pollutants with likely carcinogenic effects. In a subsequent communication, ORD agreed to the
amended recommendation and provided a corrective action plan stating that it would revise its
consent forms by June 30, 2014. We accept the agency’s planned corrective action in response to
this recommendation. The recommendation is resolved and open pending the agency’s
completion of the agreed-to corrective actions.

Note 8 - Response to Recommendations 8(a), 8(b) and 8(c):

The agency concurred with our recommendation to revise the NHEERL guidance to: (a) clearly
state that NHEERL has adopted UNC-IRB SOP definitions and reporting timeframes for adverse
events and unanticipated problems, (b) establish the EPA’s clinical follow-up responsibilities
after adverse and serious adverse events, and (c) require principal investigators to include a
summary of clinical follow-up responsibilities in the study protocol and consent forms. We
accept the agency’s planned corrective actions to ensure that NHEERL guidance is harmonized
with the latest IRB policy and to revise the guidance to describe EPA’s clinical follow-up
responsibilities. The agency provided a corrective action plan stating that it would revise the
adverse events section of the NHEERL guidance to ensure that NHEERL policy is always
harmonized with the latest IRB policy, and that it would describe EPA’s follow up clinical
responsibilities. The agency committed to completing these actions by September 30, 2014. We
accept the agency’s planned corrective action in response to recommendations 8(a) and 8(b).
Recommendations 8(a) and 8(b) are resolved and open pending the agency’s completion of the
agreed-to corrective actions.

Regarding recommendation 8(c), the agency said that it would discuss with the UNC-IRB whether
it wants to see a summary of the agency’s clinical follow-up responsibilities included in consent
forms, and include it if the IRB recommends the agency do so. After discussing the agency
response at the exit conference, NHEERL management concurred with our recommendation to
include a summary of the agency’s clinical follow-up responsibilities in the study protocol and
consent forms. In a subsequent communication, the agency stated that “Changes to the NHEERL
guidance document will be made to ensure that the NHEERL policy is always harmonized with
the latest IRB policy. The NHEERL guidance document will be updated to specify EPA’s
follow-up clinical responsibilities.” Further, the agency clarified that a summary of these
responsibilities would be included in study protocols and consent forms. The agency said this
corrective action would be completed by September 30, 2014. We accept the agency’s planned
corrective action in response to this recommendation. The recommendation is resolved and open
pending the agency’s completion of the agreed-to corrective actions.




13
 Other federal health agencies would include the National Institute of Health, National Toxicology Program, Health
and Human Services, the Center for Disease Control, National Institute of Environmental Health Sciences, and
Agency for Toxic Substances and Disease Registry. 


14-P-0154                                                                                                      44
                                                                                                       Appendix D

                    Definitions of Adverse Events and
                         Unanticipated Problems
Event/Problem         NHEERL guidance definitions                           2009 UNC IRB-SOP definitions
Serious adverse   Fatal or life-threatening; results in        A serious adverse event is any adverse event
events            significant or persistent disability;        temporally associated with the subject’s participation
                  require[s] or prolong[s] hospitalization;    in research that meets any of the following criteria:
                  result[s] in a congenital anomaly/birth      • results in death;
                  defect; or, in the opinion of the            • is life-threatening (places the subject at immediate
                  investigators, represents other              risk of death from the event as it occurred);
                  significant hazards or potentially serious   • requires inpatient hospitalization or prolongation of
                  harm to research subjects or others.         existing hospitalization;
                                                               • results in a persistent or significant
                                                               disability/incapacity;
                                                               • results in a congenital anomaly/ birth defect; or
                                                               • any other adverse event that, based upon
                                                               appropriate medical judgment, may jeopardize the
                                                               subject’s health and may require medical or surgical
                                                               intervention to prevent one of the other outcomes
                                                               listed in this definition.
Adverse event     Undesirable and unintended, though not       An adverse event or adverse experience is any
or experience     necessarily unanticipated, injury or         untoward or unfavorable medical occurrence in a
                  physical or emotional consequence to a       human subject, including any abnormal sign (for
                  human subject.                               example, abnormal physical exam or laboratory
                                                               finding), symptom, or disease, temporally associated
                                                               with the subject’s participation in the research,
                                                               whether or not considered related to the subject’s
                                                               participation in the research. Adverse events
                                                               encompass both physical and psychological
                                                               harms and occur most frequently in the context of
                                                               biomedical research, although they can occur in the
                                                               context of social and behavioral research.

                                                               Adverse events that are not unanticipated problems
                                                               are not required to be reported to the IRB.
Unanticipated     May or may not include specific events       An unanticipated problem refers to any incident,
problems          experienced by individual subjects, but      experience, or outcome that:
                  are developments within the research         • is unexpected (in terms of nature, severity, or
                  activity that suggest a potential for        frequency) given (a) the research procedures that are
                  increased risks to subjects or others.       described in the protocol-related documents, such as
                                                               the IRB-approved research protocol and informed
                                                               consent document; and (b) the characteristics of the
                                                               subject population being studied;
                                                               • is related or possibly related to a subject’s
                                                               participation in the research; and
                                                               • suggests that the research places subjects or others
                                                               at a greater risk of harm (including physical,
                                                               psychological, economic, or social harm) related to
                                                               the research than was previously known or
                                                               recognized.

                                                               Note that for UNC reporting purposes an event that
                                                               satisfies the first two criteria will be considered
                                                               reportable.
Source: The EPA NHEERL Guidance, 2010, and UNC IRB standard operating procedure Number 19.0, 2009.




14-P-0154                                                                                                            45
                                                                                 Appendix E

                                    Distribution
Office of the Administrator
Assistant Administrator for Research and Development
Deputy Assistant Administrator for Science, Office of Research and Development
Principal Deputy Assistant Administrator, Office of Research and Development
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of Research and Development




14-P-0154                                                                                46
